Office of Inspector General
U.S. General Services Administration



Semiannual Report
to the Congress
October 1, 2007 – March 31, 2008
GSA’s SIGNIFICANT MANAGEMENT CHALLENGES
The Congress requested the Inspectors General of major Federal agencies to report on the most
significant management challenges facing their respective agencies. Our strategic planning
process commits us to addressing these critical issues. The following table briefly describes the
challenges we have identified for GSA and references related work products issued by the
GSA OIG and discussed in this semiannual report.

CHALLENGES                BRIEF DESCRIPTION OF CHALLENGE                                PAGE

ACQUISITION               Merging GSA’s procurement organizations will yield a          2–3
PROGRAMS                  single acquisition service that will award and administer
                          governmentwide contracts worth $40 to $50 billion.
                          With growing programs and shrinking numbers of
                          qualified acquisition personnel, attention to important
                          fundamentals, such as ensuring competition and
                          meaningful price analysis, has diminished.

CONTRACT                  GSA’s multibillion dollar acquisition programs have           3–4
MANAGEMENT                expanded rapidly in terms of sales, variety, and complexity
                          of the procurements performed. A growing list of warning
                          signs throughout the acquisition process suggests that
                          the technical and management skills needed by the
                          procurement workforce to operate in this more
                          sophisticated arena are not keeping pace with these
                          new demands.

INFORMATION               Technology applications have increased exponentially          4–9
TECHNOLOGY                as “E-Gov” is used to better manage operations and
                          interface with the public, but complex integration and
                          security issues exist.

MANAGEMENT                Management controls have been streamlined, resulting          9 – 17
CONTROLS                  in fewer and broader controls, making it essential that
                          the remaining controls be emphasized and consistently
                          followed. The need for strong internal controls underlies
                          several of the other management challenges.

PROTECTION OF             GSA is responsible for protecting the life and safety of      17 – 20
FEDERAL FACILITIES        employees and public visitors in Federal buildings. The
AND PERSONNEL             increased risks from terrorism have greatly expanded the
                          range of vulnerabilities. A broadly integrated security
                          program is required.

HUMAN CAPITAL             GSA has an aging workforce and is facing significant loss     No
                          of institutional knowledge due to retirements, including a    Reports
                          loss of key management staff over the past year. Better       This
                          recruitment and training programs are needed to develop       Period
                          the 21st century workforce.

STEWARDSHIP OF            GSA is being challenged to provide quality space to           20 – 22
FEDERAL REAL              Federal agencies using an aging, deteriorating inventory
PROPERTY                  of buildings and facing critical budgetary limitations in
                          its modernization program.
                           Foreword



I am pleased to provide this report to the people of the United States and their elected
representatives in Congress. The Office of Inspector General (OIG) at GSA has been working
successfully to identify waste, fraud, and abuse in the programs and operations of GSA.

For the period covered by this semiannual report (SAR), we identified almost $242 million
as funds recommended for better use and questioned costs. The OIG issued 73 audit
reports. We also made 197 referrals for criminal prosecution, civil litigation, and
administrative action—activities valuable in their own right, as well as for their deterrent
effect. In this reporting period we achieved savings from management decisions on
financial recommendations, civil settlements, and investigative recoveries totaling over
$292 million. Those results provided to the American taxpayer a return of many times the
cost of OIG operations.

In the recently completed Fiscal Year (FY) 2007, the OIG achieved actual taxpayer savings
of almost $719 million, about $15 in savings for each dollar invested in the operation of the
OIG. The OIG also provided audit recommendations to GSA on questioned costs and
recommended better use of funds totaling over $900 million during FY 2007, and secured
129 indictments and criminal informations in relation to GSA employees and contractors.

We continue to work with other OIGs and law enforcement agencies as part of the National
Procurement Fraud Task Force (Task Force) of which I serve as Vice Chair. As Co-Chair
of the Legislation Committee, I helped to coordinate efforts to implement recommendations
of the Task Force’s 2007 white paper on procurement legislation. The OIG also
participates with the United States Attorney’s offices across the country in regional
procurement fraud working groups. As we carry out all our duties, we endeavor to assist
GSA to accomplish its important mission in an efficient manner and to observe all
applicable requirements.

This reporting period, as well, at the behest of the Task Force the OIG organized the first
IG-sponsored, governmentwide Forensic Auditing Forum for 200 Federal employees from
30 different agencies. The Forum focused on efforts to utilize the forensic auditing
approaches to better target the work of Inspectors General and to link identification of
fraud, waste, and abuse to successful prosecutions of offenders. Plans are underway for a
second Forensic Auditing Forum in 2008 aimed at expanding the use of this powerful
technique to protect taxpayer dollars.

I want to express my appreciation for the steady record of accomplishment of OIG
employees and commend them for their continued professionalism, dedication, and
performance in fulfilling their oaths to uphold the law. I also wish to recognize the
continued, strong support of the Congress, OMB, and employees throughout GSA for the
efforts of the OIG.




Brian D. Miller
Inspector General
April 30, 2008



                                                             October 1, 2007 – March 31, 2008 i
          Table of Contents

                                                                                               Page

Summary of OIG Performance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . v

Executive Summary . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . vii

OIG Organization Chart . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . xiv

OIG Profile . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

Management Challenges . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

   Acquisition Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

   Contract Management . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3

   Information Technology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

   Management Controls. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

   Protection of Federal Facilities and Personnel . . . . . . . . . . . . . . . 17

   Stewardship of Federal Real Property . . . . . . . . . . . . . . . . . . . . . 20

Promoting and Protecting Integrity . . . . . . . . . . . . . . . . . . . . . . . . . . 23

Governmentwide Policy Activities. . . . . . . . . . . . . . . . . . . . . . . . . . . 33

Professional Assistance Services. . . . . . . . . . . . . . . . . . . . . . . . . . . 35

Statistical Summary of OIG Accomplishments . . . . . . . . . . . . . . . . . 37

Appendices

Appendix I – Significant Audits from Prior Reports . . . . . . . . . . . . . . 45

Appendix II – Audit Report Register . . . . . . . . . . . . . . . . . . . . . . . . . 49

Appendix III – Audit Reports over 12 Months Old, Final Agency
  Action Pending . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 57

Appendix IV – Delinquent Debts. . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

Appendix V – Reporting Requirements . . . . . . . . . . . . . . . . . . . . . . 64

Appendix VI – OIG Offices and Key Officials . . . . . . . . . . . . . . . . . . 65

This semiannual report may be accessed on the Internet at the following
address: http://www.gsa.gov/inspectorgeneral




                                                                  October 1, 2007 – March 31, 2008 iii
                      Summary of OIG Performance

                       October 1, 2007 – March 31, 2008

OIG Accomplishments    Total financial recommendations                              $241,503,104

                       These include:

                       • Recommendations that funds be put to better use            $237,361,030

                       • Questioned costs                                            $444,142,074

                       Audit reports issued                                               73

                       Referrals for criminal prosecution, civil
                       litigation, & administrative action                                197

Results Attained       Management decisions agreeing with audit
                       recommendations, civil settlements, and
                       court-ordered and investigative recoveries                   $292,411,275

                       Indictments and informations on criminal referrals                 47

                       Cases accepted for criminal prosecution                            40

                       Cases accepted for civil action                                      9

                       Successful criminal prosecutions                                   32

                       Civil settlements                                                    6

                       Contractors/individuals suspended and debarred                     39

                       Employee actions taken on administrative referrals
                       involving GSA employees                                            27




                                                                     October 1, 2007 – March 31, 2008 v
     Executive Summary



During this semiannual period, the OIG continued to direct its auditing and
investigative resources toward what we have identified as the major
management challenges facing GSA. We conducted audit reviews and
investigations to ensure the integrity of the Agency’s financial statements,
programs, and operations, and to ensure that the taxpayers’ interests were
being protected. The OIG also continued to initiate actions to prevent fraud,
waste, and abuse, and to promote economy and efficiency throughout GSA.

The OIG’s resources have been directed specifically toward conducting
preaward, financial, and programmatic audits; management control
assessments; contract reviews; investigations of fraud, abuse, and related
actions by GSA employees and government contractors; and litigation
support in civil fraud, enforcement actions, criminal prosecutions, contract
claims, and administrative actions, all in an effort to maintain the integrity of
GSA programs.

Management Challenges
The OIG continued to strive to provide the high level of quality in our reviews
and recommendations that we are known for and which we believe are
necessary in order for GSA to continue leading the government in contracts
and procurements. During this semiannual period, the focus has been on
preaward contract reviews, acquisition programs, contract management,
management controls, protection of Federal facilities and personnel,
information technology (IT), stewardship of Federal real property, civil actions,
and criminal actions. The following are significant reviews and cases that we
have identified as major issues facing GSA.

Acquisition Programs
The OIG’s preaward review program provides information to contracting
officers for use in negotiating contracts. The predecisional, advisory nature of
preaward reviews distinguishes them from other audits. This program
provides vital and current information to contracting officers enabling them to
significantly improve the government’s negotiating position and to realize
millions of dollars in savings on negotiated contracts. This period, the OIG
performed preaward reviews of 49 contracts with an estimated value of
$6.9 billion. We recommended that approximately $237 million of funds be
put to better use (page 2).

Contract Management
FedRooms Program. Under the FedRooms Program (FedRooms), GSA’s
Federal Acquisition Service (FAS) provides lodging options compliant with
Federal Travel Regulations for civilian and military Federal travelers while
on official business. The focus of the review was to determine whether:
(1) FedRooms provided Federal travelers ease of reservation access, best
value, reservation flexibility, and Federal Emergency Management Agency
compliant hotels; (2) Federal travelers were using FedRooms; and (3) FAS
could enhance the program. FedRooms provided all of the benefits to Federal


                                               October 1, 2007 – March 31, 2008 vii
                                              Executive Summary



                                         travelers that the program claimed. However, travelers did not first consider
                                         using FedRooms to select and reserve commercial hotel lodging. We
                                         recommended that the Commissioner, FAS, develop a business plan which
                                         includes addressing the obstacles that may affect the future viability of the
                                         FedRooms program (page 3).

                                         Information Technology (IT)
                                         GSA’s Privacy Act Program. GSA’s Privacy Act Program is intended to
                                         ensure that the Agency fulfills the Privacy Act of 1974 requirements enacted
                                         to balance a person’s right to privacy with the Federal Government’s need for
                                         information to carry out its responsibilities. GSA’s Chief Human Capital
                                         Officer has primary responsibility for the Agency’s program, including
                                         development of privacy data protection policies and implementation of
                                         protection procedures governing the collection, use, sharing, disclosure,
                                         transfer, storage, and security of information in an identifiable form related to
                                         its employees and the public. We found that GSA has taken steps toward
                                         improving the protection of Personally Identifiable Information (PII); however,
                                         improvements to GSA’s Privacy Act Program are needed to ensure that PII
                                         is consistently protected to further reduce the risk of unauthorized or
                                         unintentional disclosure of sensitive information (page 5).

                                         Pegasys Security Controls. Pegasys is GSA’s Web-based core financial
                                         management system of record, which is based on a commercial-off-the-shelf
                                         product that is provided by CGI American Management Systems’ Momentum
                                         FinancialsTM. Pegasys supports financial and management information
                                         requirements of managers and administrative staff, and it was implemented
                                         within GSA in October 2002. In July 2006, Pegasys was upgraded to
                                         modernize and improve its capabilities as GSA’s core accounting system.
                                         During our audit, we identified instances where Pegasys and system controls
                                         should be strengthened in 5 of the 18 Federal Information Security
                                         Management Act (FISMA) security control areas we tested. Improved security
                                         controls for configuration management, system and communications
                                         protection, web application security, system and services acquisition, and
                                         awareness and training are needed to manage risk according to FISMA
                                         provisions (page 8).

                                         Management Controls
                                         GSA Fleet License Plates. GSA Fleet (Fleet) owns and operates over
                                         200,000 vehicles it supplies to other Federal agencies on a reimbursable
                                         basis. Federal regulations require most Fleet vehicles be equipped with two
                                         license plates that identify them as Federal vehicles owned by Fleet and for
                                         official use only. In some cases, stolen federally-issued plates were placed on
                                         unauthorized vehicles to impersonate government vehicles thereby diverting
                                         attention from illegal activities. Because of the possible security risks these
                                         illegal activities pose, Fleet requested a review of the controls it uses to
                                         minimize lost and stolen plates. Our audit objective was to determine whether
                                         Fleet had sufficient controls over its license plates, or whether additional


viii Semiannual Report to the Congress
     Executive Summary



controls were needed. We made eight recommendations for improvements to
GSA (page 10).

GSA’s Suspension and Debarment Program. Within GSA, the Office of the
Chief Acquisition Officer (OCAO) has overall responsibility for the suspension
and debarment of its contractors for cause under the Federal Acquisition
Regulation (FAR) and oversight of the Excluded Parties List System, a
governmentwide publication of those parties excluded from Federal
procurement programs. In FY 2006, a backlog of suspension and debarment
cases occurred because the OCAO allowed a lapse in staffing the Division
for approximately six months. We recommended that the GSA Chief
Acquisition Officer: 1) ensure that the Suspension and Debarment Division
maintains adequate staffing levels at all times to avoid future case backlogs;
2) establish controls to ensure that any future similar contract actions clearly
define contractor roles and authorities with respect to inherently governmental
work; and 3) establish controls to ensure that in future contracts requiring
security clearances and non-disclosure agreements, the contracting officer’s
technical representative ascertain that these requirements are met prior to the
start of work (page 12).

Inventory Management Software, Federal Acquisition Service. FAS
awarded a contract for approximately $3 million to Manugistics, Incorporated
(Manugistics) for inventory software. This action was taken in response to an
analysis of GSA’s Supply Business Line. The purpose of acquiring this
software was to implement a supply chain suite of applications that would
project demand and plan for inventory replenishment thereby aligning FAS
Office of Supply’s inventory management approach with commercial best
practices. We found that approximately two years after implementation of
the Manugistics software, the majority of inventory managers and store
coordinators were not using it to the fullest extent possible. The review also
identified that the Manugistics software could be improved to manage
inventory in the depots and stores. We found that procurement and holding
costs in the system were outdated which could affect the accuracy of order
quantities and how frequently items are replenished. We made seven
recommendations for improvement (page 14).

Greater Southwest Region Public Building’s Service El Paso Service
Center’s Procurements. The Region’s Acquisition Services Operations
Branch assigns responsibility for awarding contracts between its Border
Section contracting officials and the El Paso Service Center’s building
management specialists. Our analysis of the overall procurements
determined that both groups had compliance issues with FAR and/or
contract requirements. Also noted for management’s attention involved an
appearance that the Service Center may be giving preferential treatment to
three contractors who received 80 percent of micro-purchases without
competition. We made several recommendations to the PBS Assistant
Regional Administrator to strengthen and improve current practices in the
Acquisition Services Operations Branch (page 15).


                                              October 1, 2007 – March 31, 2008 ix
                                           Executive Summary



                                      Protection of Federal Facilities and Personnel
                                      PBS’s Response to Hurricane Katrina. As the civilian Federal
                                      government’s landlord, GSA’s Public Buildings Service (PBS) is responsible
                                      for safeguarding the Government’s real property assets and for providing
                                      space and services to its nearly 60 agency customers, housing over one
                                      million Federal employees. As one of the worst natural disasters the United
                                      States has ever experienced, Hurricane Katrina struck the Gulf Coast in
                                      August 2005, impacting 93,000 square miles of the United States and
                                      causing $96 billion in damage, including extensive damage to a number of
                                      Federal buildings in two regions. The devastation dramatically increased
                                      PBS’s workload beyond its normal obligation to its customers. In preparing for
                                      Hurricane Katrina, PBS had limited disaster-related standard operating
                                      procedures and building-specific disaster plans, which contributed to
                                      inconsistent preparation. The degree of building preparations undertaken
                                      before the storm to minimize damage varied widely with a result that some
                                      buildings in the impact zone may have sustained avoidable damage. We
                                      made six recommendations for improvement (page 18).

                                      Stewardship of Federal Real Property
                                      PBS’s Appraisal Process for Rent Pricing. PBS collects rent revenue from
                                      over 100 Federal agencies housed in over 8,600 buildings. Rent revenue is
                                      deposited into the Federal Buildings Fund and used to operate federally-
                                      owned buildings and pay rent to lessors for leased space. Rent charged in
                                      federally-owned space, which represents 50 percent of GSA’s rentable
                                      square footage, is required by law to approximate commercial market rates.
                                      The OIG conducted a review of PBS’s Rent Pricing Program to address
                                      issues raised by the previous Director of the Administrative Office of the
                                      United States Courts (AOUSC) in a June 2006 letter to the GSA Inspector
                                      General. The audit did not support the AOUSC’s assertions but did identify
                                      issues with controls over appraisal adjustments. We made three
                                      recommendations for improvement (page 20).

                                      Promoting and Protecting Integrity
                                      GSA is responsible for providing working space for one million Federal
                                      employees. The Agency also manages the transfer and disposal of excess
                                      and surplus real and personal property and operates a governmentwide
                                      service and supply system. To meet the needs of customer agencies, GSA
                                      contracts for billions of dollars worth of equipment, supplies, materials,
                                      and services each year. When systemic issues are identified during
                                      investigations, they are shared with GSA management for appropriate
                                      corrective actions. During this period, criminal, civil and other monetary
                                      recoveries totaled more than $292 million.

                                      Significant Civil Actions and Criminal Investigations
                                      Civil Settlements. Hexcel Corporation agreed to pay $15 million and Gator
                                      Hawk Armor, Inc. agreed to pay $425,000 in a case involving the sale of
                                      defective soft body armor from 2002 through 2005 (page 23).


x Semiannual Report to the Congress
     Executive Summary



Bribery. In two cases involving over $1.1 million in bribes and conspiracy,
6 individuals pled guilty to steering technology contracts to companies they
owned or controlled, and one individual pled guilty to accepting bribes to
inflate rankings of contractor proposals (page 23).

Fraud and Money Laundering. In six cases involving several types of fraud
and money laundering, OIG investigators successfully obtained judgments of
almost $678,000 in forfeitures, restitutions, and fines, and sentencing of 10
individuals amounting to 4 years 10 months incarceration, 9 years probation,
6 months home confinement, 10 years of supervised release and 200 hours
of community service (page 25).

GSA Voyager Fleet Charge Card Abuse – Highlights
Eleven individuals pled guilty, 17 individuals were indicted, and 9 individuals
were arrested in connection with cases arising out of fleet charge card
investigations. These cases involved thousands of dollars of fraudulent
activities associated with the program (page 29).

Suspension and Debarment – Highlights
GSA has a responsibility to ascertain whether the people or companies they
do business with are eligible to participate in federally-assisted programs and
procurements, and that they are not considered “excluded parties.” The OIG
has made it a priority to assist GSA in ensuring that the government does not
award contracts to individuals or companies that lack business integrity or
honesty.

During this reporting period, the OIG made 197 referrals for consideration of
suspension/debarment to the GSA Office of Acquisition Policy; subsequently,
GSA issued 39 suspension and debarment actions based on current and
previous OIG referrals (page 29).

Integrity Awareness – Highlights
The OIG presents Integrity Awareness Briefings nationwide to educate GSA
employees on their responsibilities for the prevention of fraud and abuse and
to reinforce employees’ roles in helping to ensure the integrity of Agency
operations. This period, we presented 34 briefings attended by 305 regional
and Central Office employees. The briefings explained the statutory mission
of the OIG and methods available for reporting suspected instances of
wrongdoing (page 29).

OIG Hotline – Highlights
The OIG received 1,300 Hotline contacts during this reporting period. Of
these contacts: 183 cases were initiated. Of these cases, 82 were referred to
GSA program officials for review and action; 34 cases were referred to other
Federal agencies for follow up; and 51 were referred to OIG for criminal/civil
investigations or audits (page 30).



                                              October 1, 2007 – March 31, 2008 xi
                                             Executive Summary



                                        Summary of Results
                                        The OIG made almost $242 million in financial recommendations to better
                                        use government funds; made 197 referrals for criminal prosecution, civil
                                        litigation, and administrative actions; reviewed 160 legislative and regulatory
                                        actions; issued 28 subpoenas; and received 1,300 Hotline contacts. This
                                        period, we achieved savings from management decisions on financial
                                        recommendations, civil settlements, and investigative recoveries totaling over
                                        $292 million.




xii Semiannual Report to the Congress
(This page was intentionally left blank.)


          October 1, 2007 – March 31, 2008 xiii
                                        OIG Organization Chart




                                             Inspector General
                                                Brian D. Miller
                                          Deputy Inspector General
                                          Robert C. Erickson (Acting)


            Office of Counsel to the IG                               Office of Internal Evaluation & Analysis
              Chris Langello (Acting)                                              Peter J. Coniglio
             Deputy Counsel to the IG                                                  Director


    Office of Administration                    Office of Audits                     Office of Investigations
      Carolyn Presley-Doss                     Andrew Patchan, Jr.                      Charles J. Augone
  AIG for Administration (Acting)                AIG for Auditing                     AIG for Investigations


       Budget, Planning, and                      Audit Operations Staff                 Investigations Operations
       Financial Management                                                                       Division
              Division
                                                    Administration &
                                                   Data Systems Staff                        Regional Offices
       Facilities and Contracts
                Division                                                                      Washington, DC
                                                      Information                               New York
                                                 Technology Audit Office                         Atlanta
         Human Resources                                                                         Chicago
                                                                                               Kansas City
            Division
                                                      Real Property                             Fort Worth
                                                                                              San Francisco
                                                       Audit Office
                                                                                                 Auburn
       Information Technology
              Division                           Finance & Administrative
                                                       Audit Office
                                                                                                 Sub-Offices
                                                                                                    Boston
                                                  Acquisition Programs                              Denver
                                                      Audit Office                                Los Angeles
                                                                                                     Miami
                                                                                                  Philadelphia
                                                  Contract Audit Office



                                                    Field Audit Offices
                                                     Washington, DC
                                                       New York
                                                      Philadelphia
                                                        Atlanta
                                                        Chicago
                                                      Kansas City
                                                       Fort Worth
                                                     San Francisco


xiv Semiannual Report to the Congress
                                  OIG Profile



                      The GSA OIG was established on October 1, 1978 as one of the original
                      12 OIGs created by the Inspector General Act of 1978. The OIG’s five
                      components work together to perform the missions mandated by Congress.

Organization          The OIG provides nationwide coverage of GSA programs and activities. Our
                      components include:

                      • The Office of Audits, an evaluative organization staffed with auditors and
                        analysts who provide comprehensive coverage of GSA operations through
                        program performance reviews, assessments of management controls, and
                        financial and compliance audits. The office conducts external reviews in
                        support of GSA contracting officials to ensure fair contract prices and
                        adherence to contract terms and conditions. The office also provides
                        research, benchmarking, and other services to assist Agency managers in
                        evaluating and improving their programs.

                      • The Office of Investigations, an investigative organization that conducts
                        a nationwide program to prevent, detect, and investigate illegal and/or
                        improper activities involving GSA programs, operations, and personnel.

                      • The Office of Counsel, an in-house legal staff that provides legal advice
                        and assistance to all OIG components, represents the OIG in litigation
                        arising out of or affecting OIG operations, and manages the OIG
                        legislative/regulatory review.

                      • The Office of Internal Evaluation and Analysis, a multidisciplinary staff
                        that manages operational reviews of the OIG components, performs
                        special projects for the Inspector General, including research and
                        analysis, provides advice to the Inspector General, and conducts internal
                        affairs reviews and investigations.

                      • The Office of Administration, a professional staff that provides
                        information technology, budgetary, administrative, personnel, and
                        communications support and services to all OIG offices.

Office Locations      The OIG is headquartered in Washington, DC, at GSA’s Central Office
                      Building. Field offices are maintained in Atlanta, Boston, Chicago, Denver,
                      Fort Worth, Kansas City, Los Angeles, Miami, New York, Philadelphia, San
                      Francisco, Auburn, WA and Washington, DC. (A contact list of OIG offices
                      and key officials is provided in Appendix VI.)

Staffing and Budget   As of March 31, 2008, our on-board strength was 290 employees. However
                      our onboard staffing level is planned to be 316 by the end of FY 2009
                      once anticipated new hires arrive and their security clearances have been
                      completed. The OIG’s FY 2008 budget is $58.3 million, which includes
                      $4.5 million in funds carried over from FY 2007 and $5.4 million in
                      reimbursable authority.



                                                                  October 1, 2007 – March 31, 2008 1
                                       Management Challenges



                                      Each year since 1998, we have identified and shared with Congress and
                                      senior GSA management what we believe to be the major challenges facing
                                      the Agency. (The current list is summarized on the front inside cover.) This
                                      period we continued our work in addressing these challenges, making
                                      recommendations, and working with management to improve Agency
                                      operations. The following sections highlight our activities in these areas.

                                      Acquisition Programs
                                      GSA provides Federal agencies with products and services valued in the
                                      billions of dollars through various types of contracts. We conduct reviews of
                                      these activities to ensure that the taxpayers’ interests are protected.

                                      Significant Preaward Reviews and Other Audits
                                      The OIG’s preaward review program provides information to contracting
                                      officers for use in negotiating contracts. The pre-decisional, advisory nature
                                      of preaward reviews distinguishes them from other audits. This program
                                      provides vital and current information to contracting officers, enabling them
                                      to significantly improve the government’s negotiating position and to realize
                                      millions of dollars in savings on negotiated contracts.

                                      This period, the OIG performed preaward reviews of 49 contracts with an
                                      estimated value of $6.9 billion. We recommended that more than
                                      $237 million of funds be put to better use.

                                      Three of the more significant Multiple Award Schedule contracts we reviewed
                                      had projected governmentwide sales totaling $1.4 billion. The review findings
                                      recommended that nearly $100 million in funds be put to better use. The
                                      reviews disclosed that these vendors offered prices and discounts to GSA
                                      that were not as favorable as the prices and discounts other customers
                                      received from these vendors. For example, one vendor did not disclose its
                                      actual sales practices, and its offer to GSA was not reflective of the
                                      company’s most favored customer pricing. Another vendor, a dealer, did not
                                      provide sufficient information to ensure that GSA is receiving the best prices
                                      possible. Finally, another vendor proposed labor category rates based on the
                                      highest paid employee in each category. We calculated the rates using the
                                      average rates for the employees in each labor category.

                                      There are now more than 17,000 contracts with over $35 billion in business
                                      annually under GSA’s procurement programs. Past history has shown that
                                      for every dollar invested in preaward contract reviews, at least $10 in lower
                                      prices or more favorable terms and conditions are attained for the benefit of
                                      the government and the taxpayer. The Office of Management and Budget
                                      (OMB) has long recognized the increasing dollar value of GSA’s contract
                                      activities and our limited resources in providing commensurate audit
                                      coverage. Through the Federal Acquisition Service (FAS) contract program
                                      revenue, OMB officials have provided us additional financial support to
                                      increase our work in this area. These funds enabled us to hire additional


2 Semiannual Report to the Congress
 Management Challenges



Acquisition Programs (continued)

staff to support expanded contract review activities including, primarily, an
increase in preaward contract reviews, as well as more contract performance
reviews that evaluate contractors’ compliance with pricing, billing, contract
terms, and periodic program evaluations to assess the efficiency, economy,
and effectiveness of contracting activities. We now allocate about 50 percent
of our resources to contract reviews.

During this reporting period, management decisions were made on 31 of the
preaward reports issued during the last year, which recommended that
almost $273 million of funds be put to better use. Management agreed with
99.9 percent of the recommended savings.

Contract Management
GSA increasingly accomplishes its mission by using contractors to provide
client services and products. Its multibillion dollar acquisition programs have
expanded rapidly in terms of size, variety, and complexity of the
procurements performed. While many GSA contracts are well crafted and
properly administered, we continue to find a significant number of
weaknesses. Our audit work in recent years has revealed a growing list of
warning signs throughout the acquisition process that suggest that training
and improved technical and management skills are needed for the
procurement workforce to operate in the more sophisticated arena and keep
pace with new demands.

Review of the FedRooms Program, Federal Acquisition Service
Report Number A070167/Q/9/P08002, issued February 4, 2008

Under the FedRooms Program (FedRooms), GSA’s Federal Acquisition
Service (FAS) provides lodging options compliant with Federal Travel
Regulations (FTR) for civilian and military Federal travelers while on official
business. FedRooms offers a single search and booking system with multiple
travel benefits and assurances to Federal travelers, including rates at or
below per diem; room cancellation until 4 PM on the day of arrival without
penalty; and Last Room Availability at two-thirds of the program’s hotels.
According to the FTR, first consideration must be given to commercial
lodging facilities under FedRooms, which has a worldwide inventory of nearly
4,500 participating hotels, when Federal travelers make their hotel selection.
Carlson Wagonlit Travel was awarded the contract to manage and market the
program in September 2004.

The focus of the review was to determine whether: (1) FedRooms provided
Federal travelers ease of reservation access, best value, reservation flexibility,
and Federal Emergency Management Agency compliant hotels; (2) Federal
travelers were using FedRooms; and (3) FAS could enhance the program.
We reviewed both FAS and the contractor’s data, reports, and traveler


                                               October 1, 2007 – March 31, 2008 3
                                       Management Challenges



                                      Contract Management (continued)

                                      surveys related to FedRooms from 2004 through 2007, and based our
                                      analyses on short-term stay hotels representing 75 percent of the total
                                      participating properties.

                                      FedRooms provided all of the benefits to Federal travelers that the program
                                      claimed. However, travelers did not first consider using FedRooms to select
                                      and reserve commercial hotel lodging. For calendar year 2006, FedRooms
                                      usage accounted for less than one percent of the total Federal travel lodging
                                      dollars spent and total travel room nights. FedRooms activity over the past
                                      2.5 years showed an increase of only 15 percent based on hotel
                                      expenditures. Low usage of the program could be attributed to several
                                      possibilities: program marketing not receiving desired results; personal
                                      preferences of travelers; and minimal incentive for travelers along with the
                                      lack of a mandate to use FedRooms. Further, several program obstacles
                                      exist that management should address through a business plan before
                                      enhancements to the program can be considered.

                                      The obstacles in the program that need management’s attention include:
                                      (1) lack of incentives for Federal travelers; (2) no differentiation between the
                                      FedRooms rate and the government rate; and (3) limitation of GSA’s per
                                      diem rate for lodging. First, there were no incentives such as free meals,
                                      no-cost internet service, and/or courtesy airport shuttle provided by
                                      FedRooms hotels to cause dramatic changes in travelers’ behavior in
                                      booking a FedRooms property over their favorite hotel. Second, there was
                                      no difference between the FedRooms rate and the hotel’s government rate.
                                      Major participating hotel chains generally provide most of the FedRooms
                                      benefits with their own government rates, thus avoiding the 2.75 percent
                                      FedRooms fee. Finally, as the government’s per diem rates for lodging
                                      already provide a built-in price control or ceiling, hotels are discouraged to
                                      offer room rate reductions for FAS’s FedRooms. With the government’s
                                      buying power of 21 million annual room nights for official business travel, the
                                      government is in a position to leverage its buying power, thereby dramatically
                                      increasing its opportunity for savings under FedRooms.

                                      We recommended that the Commissioner, FAS, develop a business plan
                                      which includes addressing the obstacles that may affect the future viability
                                      of the FedRooms program. These obstacles include providing incentives to
                                      federal travelers and differentiating the FedRooms rate from the hotel’s
                                      government rate. Further, the plan should take into consideration the impact
                                      of the government’s per diem rates for lodging on the FedRooms program.
                                      The FAS Commissioner concurred with the report’s recommendation.

                                      Information Technology
                                      GSA is in the process of replacing or upgrading a number of its legacy
                                      information systems to improve performance and take advantage of
                                      technological advances. Since GSA has had difficulty sharing usable data

4 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

between systems, many of the new IT projects are intended to go beyond
automating current business functions and to create real change in the way
that GSA does business. However, GSA systems development projects have
typically experienced significant schedule delays and cost overruns, the need
for frequent redesign, and a prolonged period of time in development.

Improvements to the GSA Privacy Act Program Are Needed
to Ensure That PII is Adequately Protected
Report Number A060228/O/T/F08007, issued March 31, 2008

The GSA’s Privacy Act Program is intended to ensure that the Agency fulfills
the Privacy Act of 1974 requirements, enacted to balance a person’s right to
privacy with the Federal Government’s need for information to carry out its
responsibilities. GSA’s Chief Human Capital Officer (CHCO) has primary
responsibility for the Agency’s program, including development of privacy
data protection policies and implementation of protection procedures
governing the collection, use, sharing, disclosure, transfer, storage, and
security of information in an identifiable form related to its employees and
the public.

The Office of Management and Budget (OMB) defines personally identifiable
information (PII) as “information which can be used to distinguish or trace an
individual’s identity, such as their name, social security number, and
biometric records, alone or when combined with other personal or identifying
information which is linked or linkable to a specific individual, such as date
and place of birth and mother’s maiden name.” Information systems
containing PII can be either electronic or manual. Various laws and
regulations address the need to protect sensitive information held by
government agencies, specifically the Privacy Act of 1974 (and revisions),
the E-Government Act of 2002 (including the Federal Information Security
Management Act), and related OMB circulars and memoranda.

Our audit objectives were to determine if GSA: (1) manages sensitive
personal information pursuant to legal and regulatory requirements, including
e-Government provisions for privacy controls; (2) has implemented technical,
managerial, and operational privacy-related controls to effectively mitigate
risks inherent to Privacy Act systems of records; and, (3) has established
procedures and automated mechanisms to verify control efficacy. If not, what
additional measures are needed to improve protection of such sensitive data
at GSA?

We found that GSA has taken steps toward improving the protection of PII;
however, improvements to the GSA Privacy Act Program are needed to
ensure that PII is consistently protected to further reduce the risk of
unauthorized or unintentional disclosure of sensitive information. In a 2006
benchmark report, the CHCO highlighted GSA’s use of information in an


                                             October 1, 2007 – March 31, 2008 5
                                       Management Challenges



                                      Information Technology (continued)

                                      identifiable form, identified the Agency’s privacy and data protection policies
                                      and procedures, and required the use of certain technical controls to protect
                                      PII. Additionally, the Office of the Chief Human Capital Officer (OCHCO) has
                                      worked with the GSA Chief Information Officer (CIO), who manages the
                                      Agency’s Information Technology Security Program, to issue a joint
                                      instructional letter. This letter introduced agency-specific policy and direction
                                      for protecting PII in GSA’s IT systems, including associated records, as
                                      printed paper documents or other storage media. GSA also recognized the
                                      need to eliminate unnecessary use of social security numbers in IT systems.
                                      However, while improvements have been made to the GSA Privacy Act
                                      Program, key components are not yet in place to ensure that PII is
                                      adequately protected from inappropriate access or modification.

                                      The Privacy Act Program has not yet ensured that all required privacy
                                      controls are in place and operating effectively and that GSA employees and
                                      contractors are fully aware of key roles, responsibilities, and accountability
                                      for protecting PII across GSA’s IT infrastructure. Improved management
                                      controls are needed to guide GSA’s Privacy Act Program, including a
                                      comprehensive assessment of the adequacy of existing controls. Additionally,
                                      GSA needs to ensure that all IT support contracts include the appropriate
                                      privacy related clauses to ensure that contractors are aware of restrictions
                                      on Privacy Act data and their responsibilities for protecting PII. While the
                                      OCHCO has provided basic privacy awareness training to the majority of
                                      GSA associates and contractors, role-based privacy training is needed for
                                      those responsible for the protection of PII. Further, vulnerability scans
                                      performed on a sample of major IT systems (real property, acquisition, and
                                      e-Travel) that collect and store PII revealed that software security patches
                                      have not been consistently and promptly applied, leaving these systems
                                      vulnerable to known security weaknesses. In response to evolving
                                      requirements aimed at improving the protection of PII, including remote
                                      access to and transportation and storage of PII, GSA has taken initial steps.
                                      However, further action is needed to ensure that shared goals for preventing,
                                      detecting, and/or recovering from a potential PII security breach are
                                      established and achieved in order to adequately manage escalating risks in
                                      this area.

                                      Within GSA, the CIO and CHCO share responsibility and accountability for
                                      developing, implementing, and administering the Agency’s controls for
                                      protecting PII, and the Office of Acquisition Policy within the Office of the
                                      Chief Acquisition Officer is responsible for developing, coordinating, and
                                      obtaining the required clearance on the Federal Acquisition Regulation (FAR)
                                      clauses related to privacy and protection of sensitive personal information.
                                      GSA has taken action to improve the protection of PII, including revisions
                                      to its IT Security Policy to provide additional safeguards for PII and
                                      implementation of a Privacy Act Program that identifies roles and
                                      responsibilities for protecting PII. GSA has also established a minimum level

6 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

of controls required for Privacy Act systems which address specific PII
challenges, including potential unauthorized or unintentional disclosure of
privacy information. However, improvements to the GSA Privacy Act Program
are needed to ensure that PII is consistently protected and that risk of
disclosure of such sensitive information is further reduced. An effective
Privacy Act Program would employ controls to protect PII data across the
Agency’s system environment to ensure that GSA employees and
contractors are aware of their responsibilities to secure privacy information
not only required by law but also what is expected by Agency policy. Given
their shared responsibility for developing and implementing controls for the
protection of PII, clarification of roles and responsibilities between the CIO
and CHCO regarding verification of the implementation of privacy-related
controls would assist the two offices with managing and monitoring their
respective security and privacy programs and ensure that key components
necessary for an effective Privacy Act Program have been identified,
developed, and implemented.

We recommended that the Chief Human Capital Officer:

• Develop an implementation plan for the Privacy Act Program which
  identifies key roles, responsibilities, milestones, and management
  performance measures to achieve long-term improvement goals.

• Work closely with the Chief Information Officer to establish collaborative
  agency-wide procedures to:

  • Ensure that the Privacy Act Program is integrated with the Agency’s
    security program and assesses risk with and identifies controls for all PII,
    including PII residing outside of major IT systems.
  • Periodically assess the need for and potential uses of automated
    content management and data leakage tools or other procedures to
    assist in identifying and protecting PII within GSA’s IT and system
    environment.
  • Confirm that required security hardening guides are being followed and
    that vulnerabilities are promptly recorded and mitigated for major IT
    systems that collect and store PII.
  • Implement remaining privacy controls required by OMB’s June 23, 2006
    memorandum, Protection of Sensitive Agency Information, including
    encryption and two-factor authentication for systems maintaining PII.
  • Develop a plan that includes the key activities, milestones, and
    performance measures necessary to guide GSA in discontinuing the
    collection and storage of social security numbers in IT systems where no
    longer required.

• Work with the Office of the Chief Acquisition Officer to review contracts in
  support of major IT systems that collect and store PII to ensure that the


                                             October 1, 2007 – March 31, 2008 7
                                       Management Challenges



                                      Information Technology (continued)

                                        appropriate privacy clauses have been included and that contractors
                                        supporting GSA’s IT systems that collect and store PII are aware of and
                                        fulfill their roles and responsibilities for protecting GSA’s PII.

                                      • Complete development and implementation of role-based training for GSA
                                        associates and contractors who are responsible for protecting sensitive
                                        information, including PII.

                                      The CHCO and CIO provided consolidated management comments on
                                      specific audit findings and recommendations that indicated general
                                      concurrence and agreed to develop an implementation plan for the Privacy
                                      Act Program which identifies key roles, responsibilities, milestones, and
                                      management performance measures to achieve long-term improvement
                                      goals.

                                      Pegasys Security Controls Interim Audit Report
                                      Report Number A070094/B/T/F08001, dated October 3, 2007

                                      Pegasys is GSA’s Web-based core financial management system of record,
                                      which is based on a commercial-off-the-shelf (COTS) product that is
                                      provided by CGI American Management Systems’ (AMS) Momentum
                                      FinancialsTM. Pegasys supports financial and management information
                                      requirements of managers and administrate staff, and was implemented
                                      within GSA in October 2002. In July 2006, Pegasys was upgraded to
                                      modernize and improve its capabilities as GSA’s core accounting system.
                                      Pegasys is categorized under the Federal Information Security Management
                                      Act (FISMA) as a moderate risk system. The objective of this system security
                                      assessment was to assess the implementation of management, operational,
                                      and technical security controls for Pegasys, including controls established
                                      with GSA’s IT security program to address FISMA requirements.

                                      During our audit, we identified instances where Pegasys and system controls
                                      should be strengthened in 5 of the 18 FISMA security control areas we
                                      tested. Improved security controls for configuration management, system and
                                      communications protection, Web application security, system and services
                                      acquisition, and awareness and training are needed to manage risk
                                      according to FISMA provisions. Implementation of security controls within
                                      these five areas should be consistent with GSA policy and National Institute
                                      of Standards and Technology (NIST) requirements.

                                      • Network and vulnerability scanning and database security testing
                                        confirmed that several configuration management security weaknesses
                                        previously identified by the Office of the Chief Financial Officer (OCFO)
                                        had not been corrected at the time of our scanning. Additional
                                        opportunities to improve configuration management include an Internet


8 Semiannual Report to the Congress
 Management Challenges



Information Technology (continued)

  protocol (IP) address change that was not properly communicated through
  GSA, changing or setting expirations for passwords, and the need to
  appropriately configure a contractor laptop used to access Pegasys.

• In system and communications protection, a review of system security
  documentation identified that controls for and risks associated with
  accessing data in the Business Objects database had not been included
  with the system certification and accreditation for Pegasys, yet Pegasys
  depends on this utility to provide reporting functionality. This reliance on
  information system services provided by an external service provider
  introduces challenges that include determining how the external services
  are protected in accordance with the organization’s security requirements.

• Assessment of Web application security confirmed one weakness that had
  not been resolved at the time of our scanning and identified instances
  where the application was not configured in accordance with the GSA CIO
  Web application security procedural guide.

• In system and services acquisition, we identified that the contractor
  security policy and procedures have not been updated to reflect
  strengthened security controls required by FISMA.

• While contractors with significant security responsibilities have received
  security awareness training, they have not been provided role-based
  security training. Appropriate role-based security training for contractors
  with significant security responsibilities is needed to ensure the ability to
  provide for the confidentiality, integrity, and availability of Pegasys and its
  data.

Management recommendations related to strengthening security controls
were not included in this interim audit report. Recommendations will be
included in the final audit report.

The results of our audit and the specific findings in the audit report were
discussed with the OCFO management. Since this was an interim audit
report, management did not provide official written comments.

Management Controls
Multiple management controls and extensive supervisory reviews have been
replaced, through streamlining efforts, by fewer and broader controls, making
it essential that the remaining control processes be emphasized and
consistently followed. Streamlined processes have helped GSA achieve its
goal of serving customers more quickly and efficiently; however, the Agency
is exposed to the risk of mismanagement and abuse if program officials do
not ensure the faithful application of existing safeguards.


                                               October 1, 2007 – March 31, 2008 9
                                        Management Challenges



                                       Management Controls (continued)

                                       Audit of GSA Fleet’s Control of License Plates,
                                       Federal Acquisition Service
                                       Report Number A070076/Q/5/P08001, dated October 9, 2007

                                       GSA Fleet (Fleet) owns and operates over 200,000 vehicles it supplies to
                                       other Federal agencies on a reimbursable basis. Federal regulations require
                                       most Fleet vehicles be equipped with two license plates that identify them as
                                       Federal vehicles owned by Fleet, and for official use only. In some cases,
                                       stolen federally-issued plates were placed on unauthorized vehicles to
                                       impersonate government vehicles thereby diverting attention from illegal
                                       activities. Because of the possible security risks these illegal activities pose,
                                       Fleet requested a review of the controls it uses to minimize lost and stolen
                                       plates. Our audit objective was to determine whether Fleet had sufficient
                                       controls over its license plates, or whether additional controls were needed.

                                       For the year ended April 2007, Fleet had approximately 1,680 reports of
                                       missing plates, or an average of about 140 per month. Over 80 percent
                                       were listed as missing a single plate rather than a set of plates and
                                       86 percent of these were missing the front plate. Replacing missing plates
                                       is time-consuming and costly. For example, Fleet must furnish the customer
                                       agency a new set of license plates and a matching charge card, and the
                                       vehicle is out of commission until the replacements are received.

                                       Federal license plates currently have no expiration dates, so lost or stolen
                                       plates can be used indefinitely. Although the design has changed over the
                                       years, older plates are still used on federally-owned vehicles. Therefore,
                                       there is no assurance that misplaced or stolen plates of any age would be
                                       noticed.

                                       During our audit we found these additional control issues for GSA
                                       management to consider.

                                       • Excessive quantities of license plates from prior years were stored at
                                         some Fleet offices throughout the country because Fleet had no
                                         comprehensive list of available license plates or an effective system for
                                         matching orders for license plates with existing inventory. The inventory
                                         records for nine field locations and Central Office showed carryover stock
                                         from FY 2006 totaling about 3,100 sets of plates, with quantities at
                                         individual locations ranging from 72 to 723 sets. There were plates in
                                         stock that had been held four or more years.

                                       • Fleet vehicles (about 7,800 vehicles) that used state license plates to
                                         hide their Federal ownership retained Fleet license plates as well. Some
                                         of these vehicles had been turned in at the end of their life cycle with
                                         the Fleet plates missing. Fleet had no way of knowing when the plates



10 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

  disappeared or whether they were subsequently used for improper or
  illegal purposes.

• Fleet receives two plates for its trailers (about 850 trailers), but the trailers
  have only one mounting position on the back. The second plate serves no
  purpose. It may be given to the customer to store, mounted over the first
  plate on the back of the trailer, or retained by the Fleet Management
  Center.

• The license plates of vehicles turned in by Federal agencies frequently
  were not removed immediately, nor destroyed until the vehicles were sold.
  Plates disappeared between the time vehicles were turned in and when
  they were sold.

• Lost and stolen license plates are posted in the National Crime
  Information Center, a system controlled by the Federal Bureau of
  Investigation. Until Fleet’s losses are posted in this system, it has little
  assurance law enforcement offices will be aware of missing license plates.
  However, Fleet offices experienced difficulty getting lost and stolen license
  plates posted in the National Crime Information Center system in the past
  because of communication breakdowns with the Department of Homeland
  Security (DHS), Federal Protective Service Mega Centers. These are
  Fleet’s contact points for getting the information posted. Although
  communication improved after Fleet developed a computer program to
  help with the process, we found indications of some continued
  weaknesses in the reporting.

We recommended to the Commissioner, Federal Acquisition Service, that
the Fleet:

(1) Establish a central license plate listing in its central computer, the
    Fleet Management System, that at a minimum includes the license
    plate numbers and locations of all unassigned Fleet license plates.
(2) Not allow Fleet license plates to be retained with state-plated vehicles
    unless an agency can clearly establish a definite need for the GSA
    plates.
(3) Establish a means of assigning Fleet license numbers to state-plated
    cars for vehicle identification within Fleet’s system, but without issuance
    of actual plates.
(4) Either order one plate when ordering trailer plates, or immediately
    destroy the second plate upon receipt if two plates have to be ordered.
    Also, locate, destroy, and document the destruction of the second plate
    for existing trailers.
(5) Destroy license plates as soon as practical once they are no longer
    needed, rather than holding them until vehicles are sold.



                                               October 1, 2007 – March 31, 2008 11
                                        Management Challenges



                                       Management Controls (continued)

                                       (6) Centralize its reporting of lost and stolen plate information to the DHS to
                                           the extent practical.

                                       We also recommended to the Acting Associate Administrator, Office of
                                       Governmentwide Policy, that the Office of Travel, Transportation and Asset
                                       Management:

                                       (1) Analyze whether the Federal Management Regulation should be
                                           changed to require one license plate per Federal vehicle rather than two.
                                       (2) Continue its efforts to change the Federal Management Regulation to
                                           require Federal license plate expiration dates.

                                       The Commissioner, Federal Acquisition Service, and the Acting Associate
                                       Administrator, Office of Governmentwide Policy, agreed with their respective
                                       report recommendations.

                                       Review of GSA’s Suspension and Debarment Program
                                       Report Number A070105/O/A/F08004, issued December 20, 2007

                                       Within the GSA, the Office of the Chief Acquisition Officer (OCAO) has
                                       overall responsibility for the suspension and debarment of its contractors for
                                       cause under the Federal Acquisition Regulation (FAR) and oversight of the
                                       Excluded Parties List System, a governmentwide publication of those parties
                                       excluded from Federal procurement programs. The OCAO administers the
                                       Suspension and Debarment Program, and an appointed Suspension and
                                       Debarment Official (SDO) makes all final decisions for sanctions imposed in
                                       the public interest for the Government’s protection. Contractors debarred,
                                       suspended, or proposed for debarment are excluded from receiving
                                       contracts, and agencies are prohibited from soliciting offers from, awarding
                                       contracts to, or consenting to subcontracts with such contractors, unless the
                                       agency head determines that a compelling reason exists for such action.

                                       In GSA, almost all suspension and debarment cases are referred to the
                                       Suspension and Debarment Division (Division) by the OIG Office of
                                       Investigations. Following background information research, a Division staff
                                       member prepares a case summary review, enters relevant information into a
                                       case inventory database, and forwards the case to the SDO for a referral
                                       decision. The SDO has four options in making a decision: (1) request a
                                       Show Cause letter to request additional information; (2) send a Notice of
                                       Suspension; (3) send a Notice of Proposed Debarment; or (4) take no action
                                       after a determination that the entity does not represent a present threat to
                                       the government’s interests. The Division has a performance measure of
                                       30 days to review all OIG suspension and debarment referrals, and respond
                                       with a proposed course of action, or request additional information.




12 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

In FY 2006, a backlog of suspension and debarment cases occurred
because the OCAO allowed a lapse in staffing the Division for approximately
six months. Staffing levels were affected by employee retirements and
reassignments. During this time, 159 entities were referred to the Division,
and some were not processed for up to one year after referral, so the OCAO
assigned additional staff on a temporary detail and hired a contractor to
assist with case dispensation. Our review objectives were to determine what
actions had taken place to address the backlog of cases and what needed
to occur to process suspension and debarment cases more effectively and
efficiently. Further, the review also addressed concerns as to whether the
OCAO’s hiring of temporary contractor personnel to assist in eliminating the
case referral backlog was appropriate.

By early FY 2007, the OCAO had eliminated the case backlog with the
assistance of the additional staff and contractor employees. It also
established controls to manage the caseload and standardize processes.
The Acting SDO and temporary staff implemented controls to inventory and
track the status of referrals and developed a procedural handbook for
processing referrals. In July 2007, the OCAO hired permanent staff for the
Division. Our review concluded that these controls appeared to be effective
in ensuring that the Division processes the cases in a timely manner and in
accordance with the FAR. However, continued management attention is
needed to ensure that backlogs do not recur. Relative to the hiring of
contractor personnel to assist with eliminating the referral backlog, we
determined that the work was performed under a fully competitive task order,
and that the work was not inherently governmental because government
staff retained authority over suspension and debarment decisions. We did
find, however, that improved controls are needed to ensure that contractor
roles are clearly defined, and that contractors have both the proper security
clearances and signed non-disclosure agreements.

We recommended that the GSA Chief Acquisition Officer:

• Ensure that the Suspension and Debarment Division maintains adequate
  staffing levels at all times to avoid future case backlogs.

• Establish controls to ensure that any future similar contract actions clearly
  define contractor roles and authorities with respect to inherently
  governmental work.

• Establish controls to ensure that in future contracts requiring security
  clearances and non-disclosure agreements, the contracting officer’s
  technical representative ascertain that these requirements are met prior
  to the start of work.

The Chief Acquisition Officer concurred with all recommendations.


                                            October 1, 2007 – March 31, 2008 13
                                        Management Challenges



                                       Management Controls (continued)

                                       Review of the Use of Inventory Management Software,
                                       Federal Acquisition Service
                                       Report Number A070164/F/A/P08004, dated March 21, 2008

                                       FAS awarded a contract for approximately $3 million to Manugistics,
                                       Incorporated (Manugistics) for inventory software. This action was taken in
                                       response to an analysis of GSA’s Supply Business Line. The purpose of
                                       acquiring this software was to implement a supply chain suite of applications
                                       that would project demand and plan for inventory replenishment thereby
                                       aligning the FAS Office of Supply’s inventory management approach with
                                       commercial best practices. This software will replace the legacy systems
                                       inventory management functionality, improve demand forecasting accuracy,
                                       reduce inventory levels, and maintain high customer service. FAS began
                                       implementing the inventory software in its acquisition centers and depots in
                                       September 2005.

                                       The objectives of our audit were to determine whether: (1) FAS was using
                                       the Manugistics inventory management software to the fullest extent
                                       possible, and if not, what were the reasons for inconsistent usage; and
                                       (2) the Manugistics software could be improved to better manage inventory
                                       in the depots and stores.

                                       We found that approximately two years after implementation of the
                                       Manugistics software, the majority of inventory managers and store
                                       coordinators were not using it to the fullest extent possible. For example,
                                       20 of the 34 store coordinators and inventory managers interviewed used
                                       the older Customer Supply Center and FSS-19 legacy systems to
                                       recalculate replenishment recommendations generated by the Manugistics’
                                       software. The users advised that they were skeptical of the new software’s
                                       output and did not fully understand how it made its projections and
                                       recommendations. Although most users received training before and after
                                       the software was implemented, the majority of users felt they needed
                                       additional training in using the software and understanding inventory
                                       management concepts and terminology. In addition, the majority of the users
                                       we interviewed did not see much benefit to the new software and preferred
                                       the legacy systems. However, some features of the new software represent
                                       significant enhancements over the legacy systems’ capabilities, but there are
                                       no specific performance measures that demonstrate to the users how the
                                       new software improves inventory management accuracy and timeliness.
                                       Further, to reduce reliance by the users on the legacy systems, FAS should
                                       remove redundant inventory management functionality from the legacy
                                       systems.

                                       The review also identified that the Manugistics software could be improved to
                                       manage inventory in the depots and stores. We found that procurement and
                                       holding costs in the system were outdated which could affect the accuracy of

14 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

order quantities and how frequently items are replenished. Transportation
costs were not considered in the new software yet these costs average
four percent for in-bound freight and six percent for out-bound freight.
Also, contract coverage data is not included in the software. Having this
information in the same location as the other inventory data would serve as
a convenience to FAS in determining how soon or how large a quantity an
order needs to be placed. Lastly, the software does not maintain an audit
trail of the factors and parameters that are changed by the users because it
was initially thought too costly to develop the necessary data warehousing
capabilities to store this information.

We recommended that the Commissioner, FAS:

• Provide additional training related to the proper and practical application of
  the Manugistics software and inventory management concepts and
  terminology.

• Develop meaningful performance measures to fully realize the benefits of
  the Manugistics software.

• Remove redundant inventory management functionality from the Legacy
  systems.

• Maintain up-to-date procurement and inventory costs in the Manugistics
  software.

• Conduct a cost/benefit study related to implementing improvements to
  transportation management information.

• Conduct a cost/benefit study related to incorporating contract coverage
  data in the Manugistics software.

• Conduct a cost/benefit study related to adding data warehousing to
  maintain historical data regarding actions taken by inventory managers
  and store coordinators and routinely report this information to their
  supervisors.

The Commissioner concurred with the report’s recommendations.

Review of the Greater Southwest Region Public Building’s Service
El Paso Service Center’s Procurements
A070150/P/7/R08001, issued November 29, 2007

In the Greater Southwest Region (GSWR), PBS’s Acquisition Services
Operations Branch assigns dual responsibility for awarding contracts
between contracting officials in its Border Section for the majority of services


                                             October 1, 2007 – March 31, 2008 15
                                        Management Challenges



                                       Management Controls (continued)

                                       over the micro-purchase threshold and the El Paso Service Center (Service
                                       Center) building management specialists for most procurements within the
                                       micro-purchase threshold. The micro-purchase threshold for supplies,
                                       equipment, and some services is currently $3,000 and for contracts involving
                                       construction, alteration, or repair of public buildings or public works it is
                                       $2,000. The El Paso Center contracted for building maintenance and
                                       cleaning services through a property management contractor for various
                                       buildings and border stations allowing for awards up to $25,000 for repairs
                                       without competition.

                                       Our review objective was to determine whether the Service Center made
                                       procurements in accordance with procurement laws and regulations and
                                       GSA’s policies and procedures, and if procurements are not compliant, what
                                       control issues exist. To determine the level of compliance, we reviewed
                                       supporting documentation for credit card transactions from the three most
                                       used vendors representing 80 percent of the micro-purchases valued at
                                       about $90,460, and procurements over the micro-purchase threshold valued
                                       at $244,736, for the period October 1, 2005, through March 31, 2007.

                                       Although we found that the Service Center’s micro-purchases were in
                                       compliance with procurement regulations and GSA’s policies and
                                       procedures, the GSWR Border Section procurement officials did not fully
                                       comply with the FAR or the terms and conditions of the Service Center’s
                                       building maintenance contract in place when procuring services over
                                       the micro-purchase threshold. Our analysis determined that 25 of
                                       30 procurements over the threshold amount had compliance issues.
                                       Accordingly, as a result of non-compliance with FAR and the contract
                                       requirements, the government may not have received best value.

                                       The Border Section procurement officials were not compliant with FAR for
                                       half of the procurements over the micro-purchase threshold awarded under
                                       simplified acquisition procedures. Specifically, officials did not: (1) solicit
                                       competition for construction services; (2) obtain funding approval prior to
                                       contractor performing services; (3) demonstrate anticipated costs to the
                                       government were fair and reasonable for a sole source award; (4) include
                                       mandatory clauses for construction services contracts; and (5) issue a
                                       written solicitation for construction services over $2,000. In addition, a credit
                                       cardholder with micro-purchase authority procured construction services that
                                       exceeded the micro-purchase threshold.

                                       Further, the Border Section procurement officials were not fully compliant
                                       with all of the terms and conditions of the building maintenance contract for
                                       95 percent of awards under the contract. Specifically, the procuring officials
                                       did not document on the purchase order the description of services being
                                       procured, the maximum number of hours and amount of material costs for
                                       which the contractor would be compensated, and a ceiling amount not to be

16 Semiannual Report to the Congress
 Management Challenges



Management Controls (continued)

exceeded without written approval of the contracting officer’s representative
(COR). Added to this, the COR did not obtain an itemized written estimate of
the labor hours and costs of parts and materials possibly required to
complete the repair, and ensure that the contractor maintained a log showing
each person involved in repairs. Additionally, three procurements were
outside the scope of the building maintenance contract repair clause.

Another control issue noted for management’s attention involved an
appearance that the Service Center may be giving preferential treatment to
the three aforementioned contractors, in particular to one company owned
by a relative of an El Paso property manager that received one-third of the
micro-purchases made by credit cardholders. In fact, during the review
period, approximately 80 percent of the micro-purchases were directed to
the three contractors without competition.

To strengthen and improve current practices in the GSWR PBS Acquisition
Services Operations Branch, we recommended that the Assistant Regional
Administrator, Public Buildings Service, require the Acquisition Director to:

• Develop training for procuring officials to ensure:

  • Procurements of construction services over $2,000 meet FAR
    requirements;
  • Costs anticipated for sole source awards are fair and reasonable;
  • Credit cardholders do not exceed their micro-purchase authority; and
  • Procurements awarded on the basis of the building maintenance
    contract repair clause, if any, meet the terms and conditions.

• Develop and implement policies and procedures to ensure funding
  approval is obtained before work is performed.

• Ratify the transaction made by the cardholder that exceeded his micro-
  purchase procurement authority.

The Regional Administrator generally concurred with our findings and
recommendations.

Protection of Federal Facilities and Personnel
Providing a safe, healthful, and secure environment for over 1 million
workers and the visitors to over 8,700 owned and leased Federal facilities
nationwide is a major multifaceted responsibility of GSA. The increased risks
from terrorism have greatly expanded the range of vulnerabilities traditionally
faced by building operations personnel. In March 2003, the Federal
Protective Service (FPS) was transferred from GSA to the Department of
Homeland Security (DHS). While FPS is no longer part of GSA, the Agency


                                             October 1, 2007 – March 31, 2008 17
                                        Management Challenges



                                       Protection of Federal Facilities and Personnel (continued)

                                       has a continual need to closely interact with security personnel due to GSA’s
                                       mission of housing Federal agencies. GSA and FPS/DHS operate under a
                                       Memorandum of Agreement for obtaining services such as basic security
                                       for buildings, contract guards, law enforcement, background suitability
                                       determinations for contractors (including childcare center personnel),
                                       pre-lease security checks, occupant emergency plan support, and continuity
                                       of operations support. Ensuring that Federal employees have a secure work
                                       environment and that building assets are adequately safeguarded must
                                       remain a primary concern of GSA.

                                       Audit of PBS’s Response to Hurricane Katrina
                                       Report Number A070075/P/R/R08003, issued March 20, 2008

                                       As the civilian Federal government’s landlord, PBS is responsible for
                                       safeguarding the government’s real property assets and for providing space
                                       and services to its nearly 60 agency customers, housing over one million
                                       Federal employees. As one of the worst natural disasters the United States
                                       has ever experienced, Hurricane Katrina struck the Gulf Coast in August
                                       2005, impacting 93,000 square miles of the United States and causing
                                       $96 billion in damage, including extensive damage to a number of Federal
                                       buildings in two regions. The devastation dramatically increased PBS’s
                                       workload beyond its normal obligation to its customers. PBS had to prepare
                                       its customers and real property assets for the hurricane; maintain customer
                                       communications/hotlines; assess damage caused by the hurricane; help
                                       customers return to operational status; and return owned and leased space
                                       to operational status. Accordingly, our audit objectives were to: (1) review the
                                       effectiveness of preventive actions taken by GSA to safeguard assets and to
                                       prepare GSA tenants for Hurricane Katrina; (2) analyze the processes used
                                       to assess and repair those properties damaged by Katrina; (3) review the
                                       steps taken by PBS to determine the necessary actions for affected leased
                                       properties (e.g., terminate, suspend, or continue leases); and (4) ascertain
                                       the financial implications of Hurricane Katrina on the Federal Buildings Fund.

                                       In preparing for Hurricane Katrina, PBS had limited disaster-related standard
                                       operating procedures and building-specific disaster plans, which contributed
                                       to inconsistent preparation. Overall, PBS effectively disseminated information
                                       to customers and quickly deployed personnel to assess and repair damaged
                                       buildings and address customer agency space needs. To accomplish this
                                       emergency response task, PBS engaged a cadre of personnel, including
                                       property managers, leasing specialists, contracting officers, and other
                                       specialists. However, the degree of building preparations undertaken before
                                       the storm to minimize damage varied widely with a result that some buildings
                                       in the impact zone may have sustained avoidable damage.

                                       The widespread devastation caused by Hurricane Katrina created an
                                       extraordinary demand for remediation and repair services, forcing GSA to

18 Semiannual Report to the Congress
 Management Challenges



Protection of Federal Facilities and Personnel (continued)

compete with local businesses for a limited number of contractors, supplies,
and services. As a result, PBS had to absorb increased repair and leasing
costs in an effort to restore buildings quickly and respond to customer
needs. PBS may have paid higher costs for some repair work due to the
extended use of a time and materials contract as well as inflated post-
disaster construction rates.

Also as a result of the hurricane, PBS incurred additional leasing costs for
both existing leases and post-hurricane leasing actions. The disastrous
conditions left in Katrina’s wake impeded PBS’s ability to exercise the Fire
and Casualty Damage clause for hurricane-damaged leased space. This
clause, which allows the government to terminate partially destroyed leases
for space rendered untenantable by fire or other casualty, requires the
government to give written notice to the lessor within 15 calendar days of the
fire or other casualty in order to exercise the clause. PBS’s inability to
exercise this clause was particularly costly in GSA’s Greater Southwest
Region, where it awarded temporary leases with terms often greater than
needed by tenants, ultimately resulting in vacant space and no termination
rights. Due to the post hurricane market conditions and uncertain customer
requirements, GSA agreed to buyout lease agreements that cost the
government more than $5 million.

To improve PBS’s disaster preparations and response, we recommended
that the Commissioner, Public Buildings Service should:

• Ensure that disaster-related standard operating procedures and building-
  level plans for disaster preparations, including those performed by
  contractors, are developed for buildings in hurricane zones to ensure
  measures are taken to adequately safeguard real property assets during
  future disasters.

• Ensure steps are taken to prepare tenants in hurricane zones before each
  hurricane season, such as updating and providing GSA’s Southeast
  Sunbelt Region’s “Hurricane Preparedness” presentation.

• Continue to enhance and improve its damage assessment capabilities,
  such as use of the interactive assessment tool pre-loaded with data
  necessary to perform assessments developed by GSA’s Southeast
  Sunbelt Region, for future disaster responses.

• Explore alternative methods to procure and administer repair and
  remediation contracts to control costs after a major disaster.

• Ensure that measures are taken to follow up with lessors and obtain
  refunds as appropriate for terminated leased space that is re-let or sold
  after government buyouts.


                                           October 1, 2007 – March 31, 2008 19
                                        Management Challenges



                                       Protection of Federal Facilities and Personnel (continued)

                                       • Follow through with efforts to update the Fire and Casualty Damage
                                         clause to allow for situations where PBS is unable to access leased
                                         buildings, assess building damage, or contact lessors in order to prevent
                                         buyout agreements situations from occurring in future disasters.

                                       The Commissioner generally concurred with the report’s recommendations.

                                       Stewardship of Federal Real Property
                                       GSA is being challenged to provide quality space to Federal agencies using
                                       an aging, deteriorating inventory of buildings. In addition, the Agency is
                                       facing critical budgetary limitations since it is primarily reliant on its
                                       operations to replenish the Federal Buildings Fund. It is estimated that it
                                       would take over $6 billion for repair and alteration projects over the next five
                                       years. GSA needs a comprehensive strategy to enable an evaluation of its
                                       building projects nationwide to make the best use of available funds.

                                       Review of PBS’s Appraisal Process for Rent Pricing
                                       Report Number A060197/P/R/R08002, dated January 2, 2008

                                       PBS collects rent revenue from over 100 federal agencies housed in over
                                       8,600 buildings. Rent revenue is deposited into the Federal Buildings Fund
                                       and used to operate federally owned buildings and pay rent to lessors for
                                       leased space. Rent charged in federally owned space, which represents
                                       50 percent of GSA’s rentable square footage, is required by law to
                                       approximate commercial market rates. The major components of rent in
                                       federally owned buildings are the shell rent, operating costs and parking.
                                       These are established by a market-based appraisal using comparable
                                       properties. The market-based appraisal relies on the professional experience
                                       and judgment of the performing appraiser who is bound by professional
                                       appraisal standards and GSA’s annual instructions for the appraisal of
                                       Fair Annual Rental rates. It is PBS policy to use a contractor to perform
                                       appraisals, but prior to policy revisions in June 2006, qualified PBS staff
                                       were allowed to prepare appraisals in-house. PBS policy also permitted
                                       GSA’s regional appraisers to make adjustments to the appraised rate to
                                       correct for “particular facts concerning a specific occupancy of which the
                                       appraiser was unaware.” The appraisal report and final value conclusions
                                       are reviewed by the GSA regional appraiser and accepted as a reasonable
                                       approximation of commercial market rates for the subject building.

                                       The OIG conducted a review of PBS’s Rent Pricing Program to address
                                       issues raised by the previous Director of the Administrative Office of the
                                       United States Courts (AOUSC) in a June 2006 letter to the GSA Inspector
                                       General. These issues were: (1) PBS employees were materially adjusting
                                       independent appraisal rates upward; (2) the Linking Budget to Performance
                                       program (LB2P) may have created an incentive for PBS employees to alter


20 Semiannual Report to the Congress
 Management Challenges



Stewardship of Federal Real Property (continued)

rental rates; (3) PBS has been overcharging the Courts due to misclassified
tenant space and erroneous billing; and, (4) tenant access to appraisal
documents was limited. The audit work included an examination of appraisal
files and aspects of the LB2P program, as well as an evaluation of the
critical performance elements included in the GSA regional appraisers’
annual performance evaluations.

The audit did not support the AOUSC’s assertions but did identify issues
with controls over appraisal adjustments. We reviewed 377 contract
appraisals in 4 regions and found that PBS personnel had adjusted
43 percent in a predominantly upward direction. The average adjustment was
an increase of $2.34 per square foot, with adjustments ranging from an
increase of $16.86 per square foot to a decrease of $9.49 per square foot.
Although all 4 regions made adjustments, 70 percent of the adjustments
(excluding contractor errors or omissions) were made in one region. These
adjustments were permitted by the PBS policy in effect at that time; however,
we have seen a substantial decrease in recent years of the adjustments due
to initiatives undertaken by PBS. According to the written rationale included
in most of the appraisal files, the majority of the adjustments made by the
regional appraisers were to correct deficiencies they identified in the
contractor’s appraisal. For example, 70 adjustments were made to correct
obvious contractor errors such as typographical errors, math errors,
transposed numbers, incorrect rates brought forward to the summary sheet
from the body of the report or rates not brought forward to the summary
sheet. In addition, downward adjustments were being made consistently. The
audit also identified several control issues related to appraisal adjustments
that need to be addressed. For example, the appraisal files rarely contained
supplementary documents to support the regional appraiser’s adjustments.
Our review also found instances where the contract appraisal did not follow
PBS policy and the contractor errors were not identified or corrected by
regional appraisers. There was also limited documentation of regional
oversight over appraisal reviews.

While aspects of the LB2P program do encourage increasing revenue, the
nature and timing of the rent appraisal process and LB2P program do not
provide an inherent incentive to adjust appraisals for a personal benefit.
Contract appraisals are completed and reviewed 22 months (on average)
prior to becoming effective, in order to provide customer agencies sufficient
time to plan and prepare for budget cycles and to complete the appraisal
process. Since LB2P bonuses are paid approximately five months after the
fiscal period in which the appraised rental rate goes into effect, this results in
a 39-month waiting period before any possible benefit could be received.
Additionally, for most years of the LB2P program, the target for the Funds
from Operations (FFO) measure was based on revenue projections.
Therefore, adjustments made by regional appraisers would likely be included
in the region’s revenue projections and incorporated into its FFO performance


                                              October 1, 2007 – March 31, 2008 21
                                        Management Challenges



                                       Stewardship of Federal Real Property (continued)

                                       measure target. Also, in a review of over 50 critical elements in the regional
                                       appraisers’ annual performance evaluations, we found no consistency among
                                       the language used by the regions and identified only two elements with
                                       language that could be interpreted as encouraging profitability in PBS
                                       buildings. Neither regional appraiser with these critical elements made
                                       predominately upward adjustments to the applicable contract appraisals.

                                       Our review concluded that changes in policy and varying interpretations of
                                       guidance contributed to the inappropriate tenant floor cut billings in one region.
                                       Tenant floor cut is the vertical penetrations cut into the floor for the benefit of a
                                       specific tenant such as the upper height of a double height courtroom. PBS
                                       used two methods to bill tenants for tenant floor cut space within the past
                                       several years — one method makes adjustments to the shell rate and the
                                       other makes adjustments to the square footage to arrive at a billing rate.
                                       Starting in FY 2002, PBS began to bill based solely on square footage without
                                       making adjustments to the shell rate. To assist in this effort, PBS is
                                       re-measuring all owned space but guidance during the transition was not
                                       sufficient to prevent errors in billing. PBS initiated a review of the Court’s rent
                                       and identified one region that was inappropriately billing for space.

                                       Finally, our review disclosed that PBS typically handled customer agencies’
                                       requests for appraisal information in accordance with the then-current policy.
                                       PBS has recently reformed its policy regarding the release of appraisal
                                       information in an effort to increase transparency in the appraisal program.

                                       PBS is taking action to improve the effectiveness of the appraisal program.
                                       Many of its recent measures have already addressed the major issues
                                       identified in our review.

                                       We recommended that the Commissioner, Public Buildings Service:

                                       • Establish specific documentation requirements for appraisal files to
                                         substantiate regional appraiser’s decisions and actions regarding an
                                         appraisal file (e.g. disregarded appraisals, adjustments made due to
                                         changes in space measurements, and customer appraisal requests).
                                         Requirements should provide details on what should be documented and
                                         how the documentation should be executed.

                                       • Reinforce appraisal instructions and guidance with PBS regional
                                         appraisers to ensure the appraisal review process uncovers appraisal
                                         policy violations.

                                       • Develop consistent critical performance elements for regional appraisers
                                         that will ensure performance expectations do not conflict (in fact and
                                         appearance) with the professional duties of the regional appraiser.

                                       The Commissioner concurred with our findings and recommendations.

22 Semiannual Report to the Congress
Promoting and Protecting Integrity



   GSA is responsible for providing working space for one million Federal
   employees. The Agency also manages the transfer and disposal of excess
   and surplus real and personal property and operates a governmentwide
   service and supply system. To meet the needs of customer agencies, GSA
   contracts for billions of dollars worth of equipment, supplies, materials, and
   services each year. We conduct reviews and investigations in all these areas
   to ensure the integrity of the Agency’s financial statements, programs, and
   operations, and that the taxpayers’ interests are protected. In addition to
   detecting problems in these GSA programs and operations, the OIG is
   responsible for initiating actions to prevent fraud, waste, and abuse and to
   promote economy and efficiency. When systemic issues are identified during
   investigations, they are shared with GSA management for appropriate
   corrective actions. During this period, criminal, civil and other monetary
   recoveries totaled more than $292 million.

   Significant Civil Actions and Criminal Investigations
   Two Companies Provide Defective Body Armor to Law Enforcement
   Under the direction of the U.S. Department of Justice, GSA OIG and other
   federal law enforcement agencies jointly investigated the sale to the
   government of defective soft body armor (known as “bullet proof vests”)
   containing Zylon® fiber. The investigation examined the rapid degradation of
   Zylon® in body armor, during the period of June 1996 through August 2005,
   and the consequence of whether excessive degradation caused potential
   failure of the vests. As a result of the investigation, on October 29, 2007,
   Hexcel Corporation agreed to pay the United States $15 million, and on
   December 3, 2007, Gator Hawk Armor, Inc. agreed to pay the United States
   $425,000, to settle potential liability.

   Hexcel Corporation, a weaver of high performance fibers, wove 50 percent
   to 70 percent of the Zylon® fiber used in body armor sold to Federal law
   enforcement agencies under the GSA MAS Program. Gator Hawk Armor,
   a body armor manufacturer, sold vests from 2002 through 2005 to Federal
   law enforcement agencies through the GSA MAS Program. Ongoing civil
   litigation involving the overseas manufacturer of Zylon® fiber, domestic body
   armor manufacturers, and others in the distribution channel continues, as
   well as investigations of other involved entities. The joint investigation
   included the Defense Criminal Investigative Service (DCIS), Defense
   Contract Audit Agency, Treasury OIG, Energy OIG, United States Agency for
   International Development OIG, Air Force Office of Special Investigations,
   Army Criminal Investigation Division (CID), and Naval Criminal Investigative
   Service.

   Former GSA Contracting Officer Pleads Guilty to Bribery
   A joint investigation with the Social Security Administration (SSA) OIG was
   initiated when it was alleged that the owner of Holiday International Security
   Inc. (HISI) submitted false certifications to Federal agencies, including GSA



                                               October 1, 2007 – March 31, 2008 23
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       and SSA, in order to secure government contracts and over-bill the
                                       government based on these contracts. The investigation disclosed that HISI
                                       was awarded two GSA contracts to provide security guard services to GSA
                                       buildings throughout California.

                                       The owner of HISI transferred ownership of the company to his Chief
                                       Financial Officer’s wife, who then renamed the company USProtect
                                       Corporation (USProtect). The Chief Financial Officer (CFO) remained in his
                                       position and was involved in preparing, reviewing, and submitting proposals
                                       to provide security to Federal agencies. The investigation found that the CFO
                                       had been convicted of fraud in four separate Federal criminal prosecutions,
                                       and had numerous civil judgments for fraud and false statements entered
                                       against him; and that these convictions and judgments were not disclosed to
                                       the government on contract proposals, as required. By concealing these
                                       prior judgments, the CFO obtained over $150 million from contracts procured
                                       through USProtect proposals.

                                       Further investigation revealed that the former GSA contracting officer
                                       accepted a Caribbean cruise from the owner of HISI for administering his
                                       contracts with GSA. She also admitted that the owner of HISI paid her over
                                       $100,000 in bribes for accepting proposals, which were millions of dollars
                                       higher than the next lowest bid. She completed a favorable performance
                                       review of USProtect’s work under the GSA contracts, even though there
                                       were numerous problems and complaints with its work on the contracts. Her
                                       favorable review influenced SSA’s decision to award a contract to USProtect.
                                       USProtect ultimately received over $130 million dollars in Federal contracts
                                       as a result of the aforementioned bribery scheme.

                                       On October 3, 2007, the owner of HISI pled guilty to bribing a public official
                                       and tax evasion. On November 30, 2007, the former CFO of USProtect, pled
                                       guilty to scheming to conceal material information and tax evasion.
                                       Sentencing has not been scheduled for either individual. On January 10,
                                       2008, the former GSA contracting officer pled guilty to accepting bribes and
                                       evading taxes on the bribe payments. She is scheduled to be sentenced on
                                       June 16, 2008.

                                       Six Individuals Plead Guilty in Multi-Million Dollar Bribery Scheme
                                       A joint investigation with the Internal Revenue Service (IRS) Criminal
                                       Investigations (IRS CI), Army CID, Department of Interior (DOI) OIG, Small
                                       Business Administration (SBA) OIG, and Department of Defense (DOD)
                                       DCIS was initiated when the FBI reported that employees and contractors
                                       of the U.S. Army Medical Command (USAMC) were steering technology
                                       contracts to companies they owned or controlled. The investigation found
                                       that 13 Federal Technology Service (FTS) task orders valued at
                                       approximately $10 million were awarded in this manner.


24 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   The investigation revealed that a USAMC contracting officer technical
   representative (COTR) conspired with a USMAC contractor to award a
   technology contract to Communications Technology, Inc. (COMTEK) for his
   personal benefit. By selecting COMTEK for a contract at Madigan Army
   Medical Center (MAMC), the contractor agreed to hire the COTR’s son
   without requiring him to actually work. The contractor then conspired with a
   COMTEK employee to receive approximately $1 million from the MAMC
   contract. After the award of the MAMC contract, the COMTEK employee left
   COMTEK to form his own business.

   The COTR, USAMC contractor, and the former COMTEK employee later
   founded or used the following 8(a) companies: DSS Services, Inc., Ace
   Unlimited, Inc., Sphinx Consultants and Associates (Sphinx), Muskogee
   Nation Business Enterprise, PRO-ECA, Inc., and Enterprise Consulting
   Agency. The Montoplis Group (Montoplis), owned by the son-in-law of
   another USAMC employee, was used to launder the money received in this
   scheme.

   The COTR, the USAMC contractor, and the owner of Sphinx Consultants and
   Associates pled guilty to conspiracy and accepting a bribe. Their pleas held
   them jointly and severally liable for restitution in the amount of $2,700,000.
   On April 17, 2008, the COTR and USAMC were sentenced to 7 years
   imprisonment and the owner of Sphinx was sentenced to 5 years 2 months
   imprisonment.

   On October 3, 2007, the COTR’s son pled guilty to aiding and abetting
   bribery. His sentencing has not been scheduled. On October 11, 2007, the
   father-in-law of the owner of Montoplis pled guilty to accepting a bribe
   and failure to file an income tax return and was sentenced to 5 years
   imprisonment, 500 hours community service, and ordered to pay restitution of
   $209,000 to the Department of Defense and $56,560 to the IRS. On October
   15, 2007, the former COMTEK employee pled guilty to conspiracy and
   bribery. On April 17, 2008, he was sentenced to 7 years imprisonment and
   held jointly and severally liable for restitution in the amount of $2,700,000.

   GSA Contractor Agrees to $123,529 Civil Judgment
   for Money Laundering
   An investigation with the New Jersey U.S. Attorney’s Office, DCIS, IRS
   CI, and Army CID was initiated when information developed in another
   investigation indicated that two government officials committed procurement
   fraud by creating a no-show job for a family member and a subcontract for
   a company owned by one of the government officials. The investigation
   disclosed a scheme in which a GSA FTS program director and a supervisory
   IT specialist used their positions to arrange no-show jobs for the specialist’s
   daughter with two companies that held GSA contracts to provide IT-related
   support service to the U.S. Army at Fort Monmouth, New Jersey.


                                               October 1, 2007 – March 31, 2008 25
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       One of the companies was PCC Technology, Inc. (PCC). Through a complex
                                       and intricate series of wire transfers and bank deposits, PCC moved funds it
                                       received on these contracts into various accounts (including one belonging
                                       to a relative of the owner of PCC). During the transactions, the owner of
                                       PCC maintained control of the funds by way of ownership and power of
                                       attorney. On October 2, 2007, the owner of PCC consented to forfeiture of
                                       $123,529 for money laundering.

                                       Co-Owner of Firearms Company Sentenced for Mail Fraud
                                       An investigation was initiated when it was alleged that Optimum Training
                                       Concepts (OPTIMUM), a firearms company that provided firearms
                                       qualification/certification to security guards employed by Sectek Incorporated
                                       (SECTEK) did not provide its security guards with security guard
                                       recertification training, as required by SECTEK’s GSA contract, yet
                                       submitted documentation indicating these guards had received the training.
                                       The investigation substantiated the allegations. When the SECTEK
                                       guards (who were certified by the co-owner) were retested by the Federal
                                       Protective Service (FPS), it was found that 38 of the 73 guards did not
                                       qualify.

                                       On February 12, 2008, the former co-owner of OPTIMUM was sentenced to
                                       2 years probation, 200 hours of community service, and ordered to pay
                                       restitution in the amount of $10,520 and a fine.

                                       Previously, a former manager with SECTEK pled guilty to making false
                                       statements, when he falsely completed a form reflecting that a SECTEK
                                       guard passed a firearm qualification, when in fact he had not. On April 4,
                                       2008, he was sentenced to 2 years probation, and ordered to pay restitution
                                       in the amount of $10,520 and a fine.

                                       Owner of Vehicle Repair Shop Pleads Guilty to Theft of Government
                                       Property
                                       An investigation was initiated when it was reported that the owner of Ray’s
                                       Service Center allegedly was filing fraudulent claims for vehicle repairs. The
                                       investigation determined that the owner routinely placed telephone claims to
                                       the GSA Maintenance Control Center for approval and confirmation of
                                       repairs to GSA vehicles assigned to Shaw Air Force Base in Sumter, South
                                       Carolina, although these repairs were not completed at Ray’s Service
                                       Center. The investigation identified $25,548 of fraudulent repair claims by the
                                       owner. On February 14, 2008, the owner pled guilty to theft of government
                                       property. A sentencing date has not been set.




26 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   Former GSA Employee Pleads Guilty to Conspiracy, Receiving an Illegal
   Gratuity, and False Statements
   A joint investigation with Department of Homeland Security, FPS was
   initiated from information obtained during the investigation of Superior
   Protection Inc. (SPI). SPI had a GSA MAS contract to provide armed
   security guards for federal facilities.

   The investigation revealed that the former employee was employed as a
   Physical Security Specialist and COTR from December 1990 through August
   2004 with GSA. As a COTR, he was responsible for monitoring SPI’s armed
   guard services for the Federal Government, approving FPS expenditures for
   additional guard services, and acting as a liaison between the FPS and SPI.
   It was found that he used his official position as COTR to provide favorable
   treatment to SPI in exchange for things of value. On October 11, 2007, he
   pled guilty to conspiracy, receiving an illegal gratuity, and false statements
   and was sentenced to 6 months home confinement, 3 years probation, and
   ordered to pay a fine.

   Former GSA Employee Pleads Guilty to Federal Employees
   Compensation Fraud
   An investigation was initiated when the U.S. Department of Labor (DOL)
   reported that a former GSA employee was working for a construction
   company and receiving worker’s compensation for an injury he sustained
   while employed at the GSA, Eastern Distribution Center. The investigation
   disclosed that from May 2006 through February 2007, the former employee
   worked for a construction company; yet on February 1, 2007, he certified
   that he had not worked for any employer from November 2005 through
   February 1, 2007. He indicated that he had not been physically able to
   perform any type of work since June 15, 1999. The records showed that
   between November 2005 and January 2007, the DOL, Office of Workers
   Compensation Programs issued tax-free Federal Employee Compensation
   Act benefits to him.

   On October 9, 2007, the former GSA employee pled guilty, pursuant to a
   plea agreement, to the charge of making a false statement or fraud to obtain
   Federal employees compensation. On February 4, 2008, he was sentenced
   to 5 years probation and ordered to pay restitution in the amount of $55,983.

   Veterans Affairs Employee Pleads Guilty to Purchase Card Fraud
   An investigation was initiated when it was alleged that a U.S. Department of
   Veterans Affairs (VA) purchase card issued under a GSA contract was used
   to fraudulently purchase tires. The investigation determined that a purchase
   card issued to a VA office in Big Spring, Texas had been fraudulently used
   to purchase tires and wheels from Rachal’s Tires and Wheels (RT&W) in
   Natchitoches, Louisiana. The owner of RT&W identified an individual, who


                                               October 1, 2007 – March 31, 2008 27
                              Promoting and Protecting Integrity



                                       Significant Civil Actions and Criminal Investigations (continued)

                                       was not the authorized cardholder, as the purchaser. The individual pled
                                       guilty to fraud and was sentenced on February 21, 2008 to 2 years
                                       probation, 6 months home confinement with electronic monitoring, and
                                       ordered to pay restitution in the amount of $8,308.

                                       GSA Fleet Vendor Pleads Guilty to Fraud
                                       An investigation was initiated when it was reported that the owner of an
                                       automobile body shop made fraudulent and fictitious charges on Visa credit
                                       cards maintained by the GSA Maintenance Control Center. The investigation
                                       revealed that the owner submitted bills and was paid for them although no
                                       work was done. He pled guilty to fraud and was sentenced to 2 years
                                       supervised release and ordered to pay restitution.

                                       Army Director Pleads Guilty to Accepting Gratuity
                                       A joint investigation with the Army CID was initiated when it was reported
                                       that an Army contracting director was accepting gratuities from four GSA
                                       contractors. The investigation substantiated the allegations that the director
                                       accepted gratuities while he was administering contracts/task orders
                                       (awarded through GSA) associated with these four contractors. Specifically
                                       the investigation revealed that the director purchased a truck from one of the
                                       contractors valued at $7,000 for $700, rented personally owned residential
                                       property to one of the contract employees, and received a building valued at
                                       $60,000 as a donation from one of the construction companies for his
                                       church. On December 13, 2007, he pled guilty to accepting an illegal gratuity.
                                       A sentencing date has not been scheduled.

                                       Telecommunications Fraud
                                       The OIG continues to be a principal participant in the New York Electronic
                                       Crimes Task Force (NYECTF), which has been investigating
                                       telecommunications fraud primarily involving Federal facilities within the New
                                       York metropolitan area. GSA is the principal provider of telecommunications
                                       services for these facilities. NYECTF members include the Secret Service,
                                       Department of Defense, Department of Justice, New York City Police, and
                                       telecommunications industry representatives.

                                       A fraud investigation was initiated when Visa Credit Card Services (VISA)
                                       and MasterCard International Inc. (MC) disclosed to members of the
                                       NYECTF that an individual was making unauthorized purchases with VISA
                                       and MC credit card accounts of unsuspecting credit card holders. The
                                       individual pled guilty to access device fraud and was sentenced to 2 years
                                       10 months incarceration, 3 years supervisory release, and ordered to pay
                                       restitution in the amount of $234,292.

                                       Another investigation was initiated when J.P. Morgan Chase Manhattan Bank
                                       (Chase) revealed a fraudulent scheme involving the bank accounts of United


28 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Significant Civil Actions and Criminal Investigations (continued)

   Nations (UN) Missions of several countries. The scheme involved Chase
   receiving via facsimile transmission a wire transfer request on purported
   letterhead from the victim country. The facsimile transmission sent to a
   Chase branch located near the UN building in New York City requested
   Chase make wire transfers out of various back accounts maintained for
   several UN missions into bank accounts located throughout New York City
   as stated in the bogus letterhead. These transactions were not authorized by
   the victim countries.

   Three of the four individuals involved in this fraudulent Chase scheme pled
   guilty to conspiracy to commit wire fraud. All three individuals were ordered
   to pay restitution in the amount of $245,174 and were sentenced to 1 year
   3 months to 2 years incarceration, and 3 to 5 years supervisory release.

   GSA Voyager Fleet Charge Card Abuse
   The GSA OIG has an ongoing proactive investigative project to identify and
   investigate fraud associated with the misuse of GSA-issued voyager fleet
   charge cards. During this period, 11 individuals pled guilty, 17 individuals
   were indicted, and 9 individuals were arrested in connection with cases
   arising out of fleet charge card investigations. These cases involved
   thousands of dollars of fraudulent activities associated with this program.

   Suspension and Debarment Initiative
   GSA has a responsibility to ascertain whether the people or companies they
   do business with are eligible to participate in federally-assisted programs and
   procurements, and that they are not considered “excluded parties.” Excluded
   parties are individuals and companies debarred, suspended, proposed for
   debarment, or declared ineligible to receive contracts by a Federal agency.
   The Federal Acquisition Regulation authorizes an agency to suspend or
   debar individuals or companies for the commission of any offense indicating
   a lack of business integrity or business honesty that directly affects the
   present responsibility of a government contractor or subcontractor. The OIG
   has made it a priority to process and forward referrals to GSA, so GSA can
   timely ensure that the government does not award contracts to individuals or
   companies that lack business integrity or honesty.

   During this reporting period, the OIG made 197 referrals for consideration of
   suspension/ debarment to the GSA Office of Acquisition Policy. GSA issued
   39 suspension and debarment actions based on current and previous OIG
   referrals.

   Integrity Awareness
   The OIG presents Integrity Awareness Briefings nationwide to educate GSA
   employees on their responsibilities for the prevention of fraud and abuse and



                                               October 1, 2007 – March 31, 2008 29
                              Promoting and Protecting Integrity



                                       Integrity Awareness (continued)

                                       to reinforce employees’ roles in helping to ensure the integrity of Agency
                                       operations. This period, we presented 34 briefings attended by 305 regional
                                       and Central Office employees. These briefings explain the statutory mission
                                       of the OIG and the methods available for reporting suspected instances of
                                       wrongdoing. In addition, through case studies, the briefings make GSA
                                       employees aware of actual instances of fraud in GSA and other Federal
                                       agencies and thus help to prevent their recurrence. GSA employees are the
                                       first line of defense against fraud, abuse, and mismanagement. They are a
                                       valuable source of successful investigative information.

                                       Hotline
                                       The OIG Hotline provides an avenue for employees and other concerned
                                       citizens to report suspected wrongdoing. Hotline posters located in
                                       GSA-controlled buildings encourage employees to use the Hotline. We also
                                       use our FraudNet Hotline platform to allow Internet reporting of suspected
                                       wrongdoing. During this reporting period, we received 1,300 Hotline
                                       contacts. Of these contacts, 183 Hotline cases were initiated. In 82 of these
                                       cases, referrals were made to GSA program officials for review and action as
                                       appropriate, 34 were referred to other Federal agencies for follow up, 51
                                       were referred for OIG criminal/civil investigations or audits and 16 did not
                                       warrant further review.

                                       Financial Statement Audit and Related Reviews
                                       Audit of the General Services Administration’s Fiscal Years 2007
                                       and 2006 Financial Statements
                                       Report Number A070109/B/F/F08006, issued January 28, 2008

                                       With the passage of the Chief Financial Officer’s Act of 1990, Congress and
                                       the Office of Management and Budget have established a framework for
                                       financial audits and reviews designed to enhance the Federal government’s
                                       financial management and reporting practices. Summarized below are the
                                       results of our financial and financial-related reviews.

                                       As in past years, GSA’s Financial Statement Audit was performed by an
                                       independent public accounting firm, with oversight, support work, and
                                       guidance provided by the OIG. The firm issued an unqualified opinion on the
                                       balance sheets of GSA, the Federal Buildings Fund (FBF), and the
                                       Acquisition Services Fund (ASF), as of September 30, 2007 and 2006, and
                                       the related consolidated and individual statements of net cost, changes in
                                       net position, and the combined statements of budgetary resources, for the
                                       years then ended.

                                       GSA, FBF, and ASF had no material weaknesses in internal controls over
                                       financial reporting or instances of noncompliance with applicable laws and



30 Semiannual Report to the Congress
Promoting and Protecting Integrity



   Financial Statement Audit and Related Reviews (continued)

   regulations. The firm did, however, identify the following significant
   deficiencies concerning the Agency’s need to:

   • Improve controls over the monitoring, accounting, and reporting of
     budgetary transactions.

   • Strengthen system access, separation of duties, and monitoring controls.

   Report on Internal Controls Over Performance Measures
   Report Number A070214/B/F/F08002, issued October 22, 2007

   The OIG conducted the portion of GSA’s FY 2007 Financial Statement Audit
   related to internal controls over performance measures. Our report noted that
   the internal controls designed by the Office of the Chief Financial Officer
   (OCFO) over GSA’s performance measure data are operating effectively.
   Specifically, we found that, in accordance with GSA Policy, the OCFO
   performed and documented the required review of Agency performance
   measure data, and that the conclusions therein were adequately supported.

   Reports on Applying Agreed-Upon Procedures

   Re: FY 2007 Environmental Liabilities
   Report Number A070109/S/F/S08004, issued November 2, 2007

   Re: FY 2007 Loss Contingencies
   Report Number A070109/S/F/S08005, issued November 8, 2007

   Re: FY 2007 Fund Balance with Treasury
   Report Number A070109/S/F/S08003, issued October 11, 2007

   In support of GSA’s Financial Statement Audit, we performed agreed-upon
   procedures reviews over GSA’s Fiscal Year 2007 environmental liabilities,
   legal loss contingencies, and Fund Balance with Treasury.

   We reconciled the Office of General Counsel’s environmental liability letter
   and supporting spreadsheets to PBS’s summary schedules based on
   documents prepared by regional offices. In our review of legal loss
   contingencies, we tested 100 percent of claims for $10 million or more to
   determine the Agency’s planned response to the litigation and, if a possible
   loss was perceived, whether Office of General Counsel personnel could
   provide explanations of the estimates. Additionally, we also reconciled
   Agency Fund Balances with Treasury reports to determine that key internal
   controls are working as intended.

   We provided the relevant information on the procedures we performed to the
   independent public accounting firm during October and November, 2007.


                                                 October 1, 2007 – March 31, 2008 31
                              Promoting and Protecting Integrity



                                       Financial Statement Audit and Related Reviews (continued)

                                       Limited Audit of the Fiscal Year 2007 Federal Managers’ Financial
                                       Integrity Act Section 2 and Section 4 Assurance Statements
                                       Report Number A070205/A/F/F08003, issued November 9, 2007

                                       The Federal Managers’ Financial Integrity Act (FMFIA), Section 2, requires
                                       GSA management to provide assurance to the President and the Congress
                                       that Agency resources are protected from fraud, waste, mismanagement,
                                       and misappropriation. FMFIA, Section 4 relates to the Chief Financial
                                       Officer’s disclosure of nonconformance with Federal financial management
                                       system policies and standards.

                                       GSA’s Management Control and Oversight Council uses assurance
                                       statement questionnaires submitted by Regional Administrators and Heads
                                       of Services and Staff Offices as a basis for developing the Administrator’s
                                       assurance statement.

                                       Each year, we review the Agency’s FMFIA process to determine whether
                                       management adequately disclosed all known control weaknesses and
                                       nonconformances in the Agency’s programs, operations, and systems of
                                       management’s reporting of known significant weaknesses and deficiencies.
                                       In reviewing the FMFIA assurance statement questionnaires submitted by
                                       management for FY 2007, we noted weaknesses reported in the following
                                       areas: budgetary reporting, non-compliance with Federal Financial System
                                       Requirements, and internal control issues at the Heartland Region. The
                                       independent public accounting firm auditing GSA’s financial statements also
                                       identified budgetary reporting deficiencies regarding unfilled customer orders
                                       and undelivered customer orders, as well as information systems
                                       deficiencies relating to system access, segregation of duties and monitoring
                                       controls. In addition, our audits identified issues relating to the
                                       implementation of the Federal Information Security Management Act.
                                       Specifically, information systems tested were not adequately secured and
                                       required background investigations were not completed for contractors.




32 Semiannual Report to the Congress
Governmentwide Policy Activities



   We regularly provide advice and assistance on governmentwide policy
   matters to the Agency, as well as to other Federal agencies and to
   committees of Congress. In addition, as required by the Inspector General
   Act of 1978, we review existing and proposed legislation and regulations to
   determine their effect on the economy and efficiency of the Agency’s
   programs and operations and on the prevention and detection of fraud and
   mismanagement. Because of the central management role of the Agency in
   shaping governmentwide policies and programs, most of the legislation and
   regulations reviewed invariably affect governmentwide issues in areas such
   as procurement, property management, travel, and government
   management and information technology systems.

   Interagency Committees and Working Groups
   We participated on a number of interagency committees and working groups
   that address cross-cutting and governmentwide issues:

   • National Procurement Fraud Task Force. The Inspector General (IG) is
     the Vice-Chair of the National Procurement Fraud Task Force (Task
     Force), which was established in October 2006 to promote the prevention,
     early detection and prosecution of procurement fraud against the United
     States. Members of the Task Force include OIGs, Federal law enforcement
     agencies, and the Department of Justice. The IG chairs two Task Force
     committees, the Legislation Committee and the Information Sharing
     Committee.

     As part of the Task Force, the IG organized the Forensic Auditing Forum,
     which took place in Washington, DC, on January 23 and 24, 2008. The
     Forum focused on the concept of forensic auditing and its current and
     potential application as a tool to promote comprehensive reviews of
     agency operations. Over 200 government officials from 30 different
     agencies attended the forum.

   • President’s Council on Integrity and Efficiency/Executive Council on
     Integrity and Efficiency (PCIE/ECIE). The IG is a member of several
     PCIE committees including the Homeland Security Roundtable, the
     Information Technology Committee, and the Contracting Committee.

     • PCIE/ECIE Homeland Security Roundtable. The IG is a participating
       member of the PCIE/ECIE Homeland Security Roundtable, headed
       by the IG of the Department of Homeland Security. The Homeland
       Security focus of the Roundtable was a springboard for a review of
       the Federal Government’s response to Hurricanes Katrina and Rita.
       The Roundtable meets quarterly to help coordinate efforts of the IG
       community, to ensure accountability of the Federal money being spent
       in those response efforts, and to deter waste, fraud, and abuse. Further,
       the Assistant Inspector General for Auditing (AIGA) and the Deputy
       Assistant Inspector General, Real Property Audit Office, participate in


                                             October 1, 2007 – March 31, 2008 33
                               Governmentwide Policy Activities



                                            the Disaster Recovery Working Group in response to the Hurricane
                                            Katrina disaster, under the same Roundtable.

                                         • PCIE Federal Audit Executive Council Information Technology
                                           Committee. The AIGA co-chairs the Information Technology (IT)
                                           Committee under the PCIE Federal Audit Executive Council (FAEC).
                                           The Committee is responsible for leading discussion and reaching
                                           consensus among all of the OIGs regarding a myriad of IT issues.
                                           Currently, the Committee is providing leadership and technical support
                                           on three important initiatives: (1) sponsoring consolidated comments
                                           from the Federal IG community to the U.S. Government Accountability
                                           Office regarding updates to its Federal Information Systems Controls
                                           Audit Manual, including changes requested by IT auditors; (2)
                                           conveying to the Office of Management and Budget (OMB) “lessons
                                           learned” across the Federal IG community with annual reporting
                                           required by the Federal Information Security Management Act,
                                           including feedback on the standardized reporting template provided by
                                           OMB; and (3) advocating an amendment of the Consolidated
                                           Appropriations Act to resolve concerns raised by the IG community
                                           regarding previous stipulations on reviews of agencies’ privacy
                                           programs and controls.

                                         • FAEC Contracting Committee. The AIGA and the Deputy Assistant
                                           Inspector General, Acquisition Programs Audit Office, participate in the
                                           FAEC Contracting Committee, created in December 2007. This
                                           Committee provides a forum to share information and coordinate
                                           reviews of significant contract and procurement community issues of
                                           interest across the IG community and Federal Government. The
                                           Committee also proposes the development and recommendation of
                                           best practices to be used by IGs to address contracting issues.

                                       • TeamMate Technical Support Group. Our TeamMate Technical Support
                                         Group participates in the TeamMate Federal Users Group and the CCH
                                         TeamMate Users Group to discuss concerns and new challenges facing
                                         TeamMate users. TeamMate is an automated audit paperwork
                                         management system that strengthens the audit process and increases
                                         efficiency.

                                       Legislation, Regulations, and Subpoenas
                                       During this reporting period the OIG reviewed 155 legislative matters and
                                       5 proposed regulations. The OIG also issued 28 subpoenas.




34 Semiannual Report to the Congress
Professional Assistance Services



   Government Auditing Standards prohibit Federal audit organizations from
   performing certain types of management consulting projects because they
   may impair the independence of the auditors when performing subsequent
   audit work in the same area. To maintain our independence when working
   closely with GSA management, we carefully assess our services to ensure
   compliance with the standards. As allowed under the standards, we
   participate in Agency improvement task forces, committees, and working
   groups in an observer or advisory capacity.

   Task Forces, Committees, and Working Groups. The OIG provides advice
   and counsel to GSA while monitoring ongoing Agency initiatives. Our
   representatives advise management at the earliest possible opportunity of
   potential problems, help ensure that appropriate management controls are
   provided when installing new or modifying existing Agency systems, and
   offer possible solutions when addressing complex financial and operational
   issues.

   Our direct participation with the Agency on task forces, committees, and
   working groups allows us to contribute our expertise and advice, while
   improving our own familiarity with the Agency’s rapidly changing systems.
   We nevertheless maintain our ability to independently audit and review
   programs. Our participation on task forces is typically as a nonvoting
   advisory member.

   Some areas in which we have been involved this period include:

   • Multiple Award Schedule Working Group. The Multiple Award Schedule
     (MAS) Working Group was established as a result of an OIG report
     released in August 2001 relating to MAS contracting pricing practices. The
     Working Group is primarily comprised of members of the Federal
     Acquisition Service (FAS) and the OIG, with representation also from the
     Office of the Chief Acquisition Officer and other Agency ad hoc members.
     The Working Group has served as an effective institutionalized
     communications channel for both broad policy issues and discrete issues
     having to do with particular contracts or reviews.

     The Working Group has had several areas of focus, including preaward
     contract reviews and MAS negotiations issues. The Working Group has
     developed guidance to MAS contracting officers (COs) regarding the
     performance and use of preaward MAS contract reviews. Further, the
     Working Group has reinvigorated the process by which FAS and the OIG
     collaboratively select and commence preaward reviews of vendors, and
     has built into this process a specific mechanism for COs to request
     reviews of particular vendors. The Working Group has focused on issuing
     guidance to COs regarding negotiation objectives and discrete negotiation
     issues for MAS contract awards. The Working Group also provided input
     to FAS in its efforts to upgrade or enhance pricing performance measures
     on MAS contracts.


                                              October 1, 2007 – March 31, 2008 35
                               Professional Assistance Services



                                       • GSA IT Governance Groups. Audit representatives participate as
                                         nonvoting members on three of GSA’s major IT governance teams and
                                         attend meetings. The Information Technology Architecture Planning
                                         Committee defines the standards for GSA’s information technology in
                                         support of business goals and at the direction of the Information
                                         Technology Council (ITC). The ITC is comprised of senior IT staff
                                         members from the Office of the Chief Information Officer and GSA
                                         services, staff offices, and regions to collaboratively explore and
                                         determine actions needed to ensure that IT decisions have a sound
                                         business and IT investment basis. Senior audit representatives also
                                         participate in meetings of the Business Systems Council, a senior
                                         management forum chaired by the Deputy Administrator. The Business
                                         Systems Council makes decisions regarding major IT investments in
                                         conjunction with GSA’s Performance Management process, the Human
                                         Capital Planning process, the IT Capital Planning and Investment process,
                                         and ongoing business process changes for the Agency.

                                       • Single Audit Act Activities. The Single Audit Act established uniform
                                         audit requirements for state and local governments receiving Federal
                                         awards. The non-Federal entities that receive Federal awards under more
                                         than one Federal program are required to undergo a single audit to
                                         prevent duplicate audits and inefficiencies. Each Federal agency monitors
                                         the non-Federal entity’s use of awards provided by the Agency, and
                                         assesses the quality of the audits conducted relative to its program. The
                                         OIG monitors these activities primarily as they relate to the personal
                                         property disposal program.




36 Semiannual Report to the Congress
                Statistical Summary of OIG Accomplishments



                             Audit Reports Issued
                             The OIG issued 73 audit reports during this reporting period. The 73 reports
                             contained financial recommendations totaling $241,503,104 including
                             $237,361,030 in recommendations that funds be put to better use and
                             $4,142,074 in questioned costs. Due to GSA’s mission of negotiating
                             contracts for governmentwide supplies and services, most of the savings
                             from recommendations that funds be put to better use would be applicable to
                             other Federal agencies.

                             Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of those
                             audits as of March 31, 2008. There were 4 reports more than 6 months old
                             awaiting management decision as of March 31, 2008. Table 1 does not
                             include 5 reports issued to another agency this period. Table 1 also does not
                             include 4 reports excluded from the management decision process because
                             they pertain to ongoing investigations.



                 Table 1. Management Decisions on OIG Audits

                                                             Reports with                Total
                                          Number of            Financial               Financial
                                           Reports         Recommendations         Recommendations
For which no management decision had
been made as of 10/01/2007
 Less than six months old                      33                  17                 $505,976,591
 Six or more months old                         0                   0                            0
Reports issued this period                     68                  38                  241,503,104
TOTAL                                         101                  55                 $747,479,695
For which a management decision was
made during the reporting period
 Issued prior periods                          29                  13                 $141,487,507
 Issued current period                         39                  22                  132,838,098
TOTAL                                          68                  35                 $274,325,605
For which no management decision has
been made as of 3/31/2008
 Less than six months old                      29                  16                 $108,665,006
 Six or more months old                         4                   4                 $364,489,084
TOTAL                                          33                  20                 $473,154,090




                                                                        October 1, 2007 – March 31, 2008 37
                      Statistical Summary of OIG Accomplishments



                                       Management Decisions on Audit Reports
                                       with Financial Recommendations
                                       Tables 2 and 3 present the audits identified in Table 1 as containing financial
                                       recommendations by category (funds to be put to better use or questioned
                                       costs).



                    Table 2. Management Decisions on OIG Audits With
                    Recommendations that Funds be Put to Better Use

                                                                 Number of                     Financial
                                                                  Reports                  Recommendations
       For which no management decision had
       been made as of 10/01/2007
        Less than six months old                                     15                      $504,762,444
        Six or more months old                                        0                                 0
       Reports issued this period                                    34                       237,361,030
       TOTAL                                                         49                      $742,123,474

       For which a management decision was
       made during the reporting period
       TOTAL                                                         31                      $272,918,672

       For which no management decision has
       been made as of 3/31/2008
        Less than six months old                                     14                      $104,715,718
        Six or more months old                                        4                       364,489,084
       TOTAL                                                         18                      $469,204,802




38 Semiannual Report to the Congress
             Statistical Summary of OIG Accomplishments




Table 3. Management Decisions on OIG Audits With Questioned Costs

                                      Number of              Questioned
                                       Reports                 Costs
For which no management
decision had been made
as of 10/01/2007
 Less than six months old                 2                   $1,214,147
 Six or more months old                   0                            0
Reports issued this period                4                    4,142,074
TOTAL                                     6                   $5,356,221

For which a management
decision was made during
the reporting period
TOTAL                                     4                   $1,406,933

For which no management
decision has been made
as of 3/31/2008
 Less than six months old                 2                   $3,949,288
 Six or more months old                   0                            0
TOTAL                                     2                   $3,949,288




                                                  October 1, 2007 – March 31, 2008 39
                      Statistical Summary of OIG Accomplishments



                                       Investigative Workload
                                       The OIG opened 143 investigative cases and closed 91 cases during this
                                       period. In addition, the OIG received and evaluated 33 complaints and
                                       allegations from sources other than the Hotline that involved GSA employees
                                       and programs. Based upon our analyses of these complaints and
                                       allegations, OIG investigations were not warranted.

                                       Referrals
                                       The OIG makes criminal referrals to the Department of Justice or other
                                       authorities for prosecutive consideration and civil referrals to the Civil
                                       Division of the Department of Justice or U.S. Attorneys for litigative
                                       consideration. The OIG also makes administrative referrals to GSA officials
                                       on certain cases disclosing wrongdoing on the part of GSA employees,
                                       contractors, or private individuals doing business with the government.


                                Table 4. Summary of OIG Referrals
           Type of Referral                              Cases                                Subjects

           Criminal                                        52                                     98
           Civil                                           17                                     34
           Administrative                                  34                                     65

           TOTAL                                          103                                    197



                                       In addition, the OIG made 14 referrals to GSA officials for information
                                       purposes only.

                                       Actions on OIG Referrals
                                       Based on these and prior referrals, 40 cases (63 subjects) were accepted
                                       for criminal prosecution and 9 cases (14 subjects) were accepted for
                                       civil litigation. Criminal cases originating from OIG referrals resulted in
                                       47 indictments/informations and 32 successful prosecutions. OIG civil
                                       referrals resulted in 6 case settlements. Based on OIG administrative
                                       referrals, management debarred 19 contractors/individuals, suspended
                                       20 contractors/individuals, and took 27 personnel actions against employees.




40 Semiannual Report to the Congress
          Statistical Summary of OIG Accomplishments



                         Monetary Results
                         Table 5 presents the amounts of fines, penalties, settlements, forfeitures,
                         judgments, and restitutions payable to the U.S. Government as a result of
                         criminal and civil actions arising from OIG referrals.


                 Table 5. Criminal and Civil Recoveries
                                              Criminal                        Civil

Fines and Penalties                          $ 523,558

Settlements                                                            $ 15,592,652

Forfeitures                                                                 123,529

Restitutions                                  1,737,322

TOTAL                                        $2,260,880                $ 15,716,181



                         Table 6 presents the amount of administrative recoveries, and investigative
                         savings as a result of investigative activities.


                        Table 6. Other Monetary Results

Administrative Recoveries                      $151,938

Investigative Savings                            26,021

TOTAL                                          $177,959




                                                                     October 1, 2007 – March 31, 2008 41
APPENDICES
                     Appendix I–Significant Audits from Prior Reports



Under the Agency audit management decision process,           The report contained six recommendations; three have
the GSA Office of the Chief Financial Officer, Office         not been implemented.
of the Controller, is responsible for tracking the
implementation of audit recommendations after a               The remaining recommendations involve the FAS
management decision has been reached. That office             Commissioner directing the Assistant Commissioner,
furnished the following status information.                   Travel, Motor Vehicle and Card Services to pursue
                                                              collection efforts of unused airline tickets for prior
Fifteen audits highlighted in prior reports to the            ($1,201,071) and current data ($315,168), pursue other
Congress have not yet been fully implemented; all are         alternatives such as DFAS deductions (maximum of
being implemented in accordance with currently                $7.7 million) and/or legal action to collect on the
established milestones.                                       outstanding claim of $8.34 million from the non-bankrupt
                                                              airline, and develop a feasible plan in conjunction with
MAS Contract Workload Management                              the Office of General Counsel that will lead to finalizing
Period First Reported: April 1, 2007, to September 30, 2007   settlements of unused airline tickets estimated at
                                                              $48 million with the three bankrupt airlines. They are
The focus of the review was to determine if FAS was           scheduled for completion on August 15, 2008.
effectively managing the workload associated with
processing contract actions in the Schedules program.
The report contained ten recommendations; seven have
                                                              Alert Report on Security of GSA’s
not been implemented.                                         Electronic Messaging Services
                                                              Period First Reported: April 1, 2007, to September 30, 2007
The remaining recommendations involve developing
policy to standardize processes for the method and            Our review assessed whether GSA has adequate
timing of entering contract modification information into     security controls to manage risks with GEMS and
FSS–Online; adopt a more structured approach to               GNNI applications. The report contained seven
reduce the number of existing underutilized Schedule          recommendations; three have not been implemented.
contracts; consider increasing the minimum sales
threshold for Schedule contracts; establish specific          The remaining recommendations involve the GSA CIO
nationwide guidance related to Price Analysis                 working closely with Services/Staff Offices/Regions to:
Documentation Requirements and Negotiation Policies           inventory all GSA’s Lotus Notes databases and
and Techniques for Schedule contracts; establish              applications and remove those that are outdated,
performance measures that evaluate CO/CS                      including ones that lack necessary controls; develop
(a) verification of vendor disclosures related to             policies and procedures clarifying roles and
Commercial Sales Practice, (b) effectiveness in               responsibilities for use and maintenance of GSA’s
analyzing prices and conducting negotiations, and             National Notes Infrastructure, reviewing and configuring
(c) consideration of the field pricing assistance; develop    appropriate access controls; and complete a
standardized procedures for the initial screening of          comprehensive certification and accreditation that
offers; and develop standard operating procedures             ensures that risks and controls are identified and
governing the transfer of contracts when Schedules are        documented. They are scheduled for completion
re-assigned from one center to another. They are              between July 15, 2008 and October 15, 2008.
scheduled for completion between May 15, 2008 and
February 15, 2009.
                                                              FY 2007 Office of Inspector General
FAS’s Administration                                          FISMA Review of GSA’s Information
of Unused Airline Tickets                                     Technology Security Program
Period First Reported: April 1, 2007, to September 30, 2007   Period First Reported: April 1, 2007, to September 30, 2007

We found that the process for refund collections for          Our review assessed the effectiveness of GSA’s IT
unused airline tickets needed significant improvements.       Security Program for meeting FISMA requirements. The

                                                                                     October 1, 2007 – March 31, 2008 45
                     Appendix I–Significant Audits from Prior Reports




report contained five recommendations; three have not         The remaining nine recommendations involve preparing
been implemented.                                             annual financial statements for HOTD that comply with
                                                              Federal Accounting Standards, subjecting HOTD to
The remaining recommendations involve the GSA CIO             more rigorous financial and operational analysis,
improving management accountability by developing an          replacing the deficient Induced Draft Fan to permit as-
inventory process for system owners, enhancing                designed system functionality and performance testing
oversight of contractor-supported systems by promoting        of the cogeneration system, determining the best use of
compliance with GSA policy and establishing one               the West Plant Asset, developing a Contingency Plan
central point for contractor background investigations,       for providing utility services in the event central
and assisting managers in adopting performance                plan operations are interrupted, accounting for fuel in
measures consistent with GSA’s IT Security Program.           accordance with Generally Accepted Accounting
They are scheduled for completion on May 15, 2008.            Principles, discontinuing the use of Reimbursable Work
                                                              Authorizations (RWA) for HOTD services in order
                                                              to correct accounting data, recognizing the HOTD
Review of the Travel                                          organization as a discrete facility within the financial
and Transportation Management                                 system, and developing the capability to isolate HOTD
Division’s Freight Management                                 financial activities by business line. They are scheduled
                                                              for completion between May 15, 2008 and January 15,
Program                                                       2009.
Period First Reported: April 1, 2007, to September 30, 2007

Our review objectives were to determine if the                PBS’s Use of Occupancy Agreements
organization ensures competitive rates that provide best      as a Billing Source
value to the Federal user, and agencies are remitting the     Period First Reported: October 1, 2006, to March 31, 2007
Industrial Funding Fee (IFF) in an accurate, complete,
and timely manner. The report contained three                 The focus of the review was to determine whether the
recommendations; two have been implemented.                   occupancy agreements billing process resulted in more
                                                              accurate, easier to understand customer bills. The
The remaining recommendation requires the Travel and          report contained two recommendations; one has been
Transportation (T&T) Management Division to determine         implemented.
the status and need of the incomplete TMSS Modules,
prepare a timetable for completing those still desired,       The remaining recommendation involves developing
and assign the necessary resources to complete the            and implementing a methodology to provide customers
development and implementation of TMSS in a timely            with additional information to explain rate changes
manner. It is scheduled for completion on July 15, 2008.      and Miscellaneous Billing Adjustments (MBA’s). It is
                                                              scheduled for completion on November 15, 2008.
Review of the Heating Operation
and Transmission District’s                                   Hurricane Katrina
Operations and Finances                                       Period First Reported: October 1, 2006, to March 31, 2007
Period First Reported: April 1, 2007, to September 30, 2007
                                                              The review assessed GSA’s effectiveness in its
The focus of our review was to determine if GSA’s             response to Hurricane Katrina. The report contained
Heating Operation and Transmission District (HOTD), a         eight recommendations; three have been implemented.
steam and chilled water utility service to government
and quasi-government customers in the National Capital        The remaining recommendations involve establishing
Region, operates and uses its assets economically,            guidance and procedures related to emergency
efficiently, and securely. The report contained thirteen      contracting,    instituting  nationwide   emergency
recommendations; four have been implemented.                  contracting training, ensuring proper supervision and

46 Semiannual Report to the Congress
                     Appendix I–Significant Audits from Prior Reports




oversight of contracting personnel supporting the             The remaining recommendation involves redesigning
Federal Emergency Management Agency (FEMA),                   GSA Form 544 as a standard mandatory electronic
ensuring regional management program practices are            version with e-signature capabilities. It is scheduled for
consistent, and examining current billing methodology to      completion on July 15, 2008.
ensure costs incurred by GSA to support FEMA can be
identified and billed to FEMA. They are scheduled for         Federal Procurement
completion on May 15, 2008.
                                                              Data System–Next Generation
                                                              Period First Reported: October 1, 2005, to March 31, 2006
GSA’s Telework Program
Period First Reported: October 1, 2006, to March 31, 2007     The review disclosed that certain contract and system
                                                              requirements had not been addressed and
The review examined GSA’s Telework Program. The               discrepancies existed in some elements in the system.
report contained four recommendations; they have not          The report contained three recommendations; two have
been implemented.                                             been implemented.

The recommendations involve creating a telework               The remaining recommendation, which requires resolving
program that is consistently administered throughout the      all data element discrepancies and data migration issues,
organization, developing a tracking system to identify        is scheduled for completion on August 15, 2008.
employees participating in the program, reviewing and
updating current telework guidance, as necessary,             GSA Advantage!
and ensuring that associates are receiving correct            Period First Reported: April 1, 2005, to September 30, 2005
locality pay. The recommendations are scheduled for
completion on May 15, 2008.                                   The review centered on specific shortfalls with GSA
                                                              Advantage’s management funding and planning
                                                              process. The report contained four recommendations;
GSA’s Electronic Contract Proposal                            three have been implemented.
and Modification System
Period First Reported: October 1, 2006, to March 31, 2007     The remaining recommendation involves establishing a
                                                              management structure with adequate authority and
The review’s objective was to determine whether               responsibility. It is scheduled for completion on June 15,
eOffer/eMod are realizing expected benefits and if            2008.
sufficient security controls have been designed
and implemented. The report contained four                    Review of FedBizOpps
recommendations; three have been implemented.                 Period First Reported: April 1, 2004, to September 30, 2004

The remaining recommendation involves analyzing               The review involved an online survey of FedBizOpps
usage rates and developing strategies to address the          users to gather information on user satisfaction to
causes of low usage. It is scheduled for completion on        assess the effectiveness of FedBizOpps. The report
July 15, 2008.                                                contained four recommendations; one has been
                                                              implemented.

Overtime Management                                           The remaining recommendations involve developing a
Period First Reported: April 1, 2006, to September 30, 2006   process to solicit input from vendors on system
                                                              enhancements, evaluating enhancements to Fed
The review focused on the management control                  BizOpps based on vendor input, and ensuring that
environment for building operations that frequently           Memoranda of Agreements are in place for FedBizOpps
incur overtime costs. The report contained three              users. The recommendations are scheduled for
recommendations; two have been implemented.                   completion on May 15, 2008.

                                                                                     October 1, 2007 – March 31, 2008 47
                    Appendix I–Significant Audits from Prior Reports




Consolidation of Distribution Centers
Period First Reported: October 1, 2002, to March 31, 2003

The review examined the operations of the FSS Stock
Program. The report contained two recommendations;
one has been implemented.

The remaining recommendation, which requires
developing access to reliable data for all delivery
methods, is scheduled for completion on July 15, 2008.




48 Semiannual Report to the Congress
                             Appendix II–Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to        Questioned
Date of       Audit                                                           Be Put to       (Unsupported)
Report        Number                    Title                                 Better Use           Costs



(Note: Because some audits pertain to contract award or actions that have not yet been completed, the financial
recommendations related to these reports are not listed in this Appendix.)

PBS Internal Audits
11/29/07       A070150        Review of the Greater Southwest Region,
                              Public Buildings Service: El Paso Service
                              Center’s Procurements

01/02/08       A060197        Review of PBS’s Appraisal Process for Rent
                              Pricing

03/20/08       A070075        Audit of PBS’s Response to Hurricane
                              Katrina PBS Contract Audits

PBS Contract Audits
10/24/07       A070128        Preaward Review of Supplemental
                              Architect and Engineering Services
                              Contract: Goshow Architects, LLP,
                              Solicitation Number GS-02P-06-DTC-
                              0024(N)

10/31/07       A070116        Preaward Review of Architect and
                              Engineering Services Contract: Goody
                              Clancy & Associates, Inc., Solicitation
                              Number GS-02P-06-DTC-0030N

11/05/07       A070220        Review of Claim for Increased Costs: Faith
                              Technologies, Inc. D/B/A SKC Electric,
                              Subcontractor to Caddell Construction Co.,
                              Inc., Contract Number GS06P02GZC0546

11/13/07       A070209        Review of a Claim: Lucia Inc.,
                              Subcontractor to Caddell Construction Co.,
                              Inc., Contract Number GS-07P-03-UTC-
                              0003

11/14/07       A070226        Review of Cafeteria Concession Contract:
                              Corporate Chefs, Inc., Contract Number
                              GS-02P-90-CTC-0140

11/15/07       A070175        Preaward Review of Supplemental
                              Architect and Engineering Services
                              Contract:     RMA    Architects, P.S.C.,
                              Solicitation Number GS-02P-06-PCD-0072


                                                                              October 1, 2007 – March 31, 2008 49
                               Appendix II–Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to       (Unsupported)
Report         Number                    Title                                Better Use           Costs


01/07/08        A070233         Review of Claim for Increased Costs:
                                Mainelli Mechanical Contractors, Inc.,
                                Subcontractor to Caddell Construction Co.,
                                Inc., Contract Number GS06P02GZC0546

01/16/08        A080102         Preaward Survey of Contractor Accounting
                                System: Performa Incorporated, Solicitation
                                Number GS-01P-05-BZC-0011

01/16/08        A080103         Report on Audit of Proposed Direct Labor
                                and Indirect Rates: Performa Incorporated,
                                Solicitation Number GS-01P-05-BZC-0011

02/21/08        A080039         Limited Review of General Conditions,
                                Overhead and Commission Rates:
                                Cauldwell Wingate Company, LLC,
                                Contract Number GS-02P-05-DTC-0021(N)

03/07/08        A070202         Review of a Claim: Dick Corporation/Matt
                                Construction Company, a Joint Venture,
                                Contract Number GS-09P-01-KTC-0071

03/19/08        A070177         Review of Claim for Increased Costs:
                                Caddell Construction Co., Inc., Contract
                                Number GS06P02GZC0546

03/26/08        A080111         Preaward Review of a Claim: Caddell
                                Construction Company, Inc., Contract
                                Number GS-04P-02-EXC-0077

FSS Contract Audits
10/19/07        A060205         Preaward Review of Multiple Award
                                Schedule Contract Extension: FedEx
                                Corporation, Contract Number GS-23F-
                                0170L

FAS Internal Audits
10/09/07        A070076         Audit of GSA Fleet’s Control of License
                                Plates, Federal Acquisition Service

02/04/08        A070167         Review of the FedRooms Program, Federal
                                Acquisition Service




50 Semiannual Report to the Congress
                      Appendix II–Audit Report Register
                                                                               Financial
                                                                          Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put to       (Unsupported)
Report     Number              Title                                Better Use           Costs


02/27/08   A070049    Review of the Value Proposition of Multiple
                      Award Schedule Labor Rates, Information
                      Technology Schedule 70

03/21/08   A070164    Review of the Use of Inventory
                      Management Software, Federal Acquisition
                      Service

FAS Contract Audits
10/01/07   A070145    Preaward Review of Multiple Award
                      Schedule Contract Extension: Scitor
                      Corporation, Contract Number GS-23F-
                      0069N

10/01/07   A070154    Preaward Review of Multiple Award
                      Schedule Contract Extension: Prudential
                      Relocation, Inc., Contract Number GS-23F-
                      9734H

10/02/07   A060194    Limited Scope Pricing Review of Multiple
                      Award Schedule Contract Number GS-07F-
                      0017K for the Period April 1, 2005 Through
                      March 31, 2006: Q-Matic Corporation

10/04/07   A070144    Preaward Review of Multiple Award
                      Schedule Contract Extension: Aquilent,
                      Inc., Contract Number GS-35F-4729G

10/12/07   A070069    Preaward Review of Multiple Award
                      Schedule Contract Extension: Project
                      Assistance Corporation, Contract Number
                      GS-00F-0051M

10/15/07   A070034    Preaward Review of Multiple Award
                      Schedule Contract Extension: Datatrac
                      Information Services, Inc., Contract
                      Number GS-35F-4513G

10/15/07   A070140    Preaward Review of Multiple Award
                      Schedule Contract Extension: DLT
                      Solutions, Inc., Contract Number GS-35F-
                      4543G




                                                                    October 1, 2007 – March 31, 2008 51
                               Appendix II–Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to       (Unsupported)
Report         Number                    Title                                Better Use           Costs


10/17/07        A060160         Limited Scope Review of Multiple Award                         $109,290
                                Schedule Contract Number GS-25F-0062L
                                for the Period February 1, 2006 to
                                September 30, 2006: Xerox Corporation

10/18/07        A070153         Preaward Review of Multiple Award
                                Schedule Contract Extension: J & L
                                America, Inc., Contract Number GS-06F-
                                0074M

10/22/07        A070090         Preaward Review of Multiple Award
                                Schedule Contract Extension: NCI
                                Information Systems, Inc., Contract
                                Number GS-35F-4014G

10/24/07        A070194         Limited Scope Postaward Review of                                $83,496
                                Multiple Award Schedule Contract: Big Top
                                Manufacturing, Contract Number GS-07F-
                                9604G

10/25/07        A070121         Preaward Review of Multiple Award
                                Schedule Contract Extension: Logtec, Inc.,
                                Contract Number GS-35F-4528G

10/31/07        A070120         Preaward Review of Multiple Award
                                Schedule Contract Extension: Merlin
                                International, Inc., Contract Number GS-
                                35F-0783M

11/01/07        A070073         Preaward Review of Multiple Award
                                Schedule Contract Extension: Sectek
                                Incorporated, Contract Number GS-07F-
                                0279M

11/07/07        A070102         Preaward Review of Multiple Award
                                Schedule Contract Extension: Independent
                                Stationers, Inc., Contract Number GS-14F-
                                0043M

11/08/07        A070197         Preaward Review of Multiple Award
                                Schedule Contract: C-Tech Industries, Inc.,
                                Contract Number GS-07F-0493T

11/13/07        A070185         Preaward Review of Multiple Award
                                Schedule Contract Extension: Knoll,
                                Incorporated, Contract Number GS-28F-
                                8029H

52 Semiannual Report to the Congress
                     Appendix II–Audit Report Register
                                                                            Financial
                                                                       Recommendations
                                                                  Funds to        Questioned
Date of    Audit                                                 Be Put to       (Unsupported)
Report     Number             Title                              Better Use           Costs


11/16/07   A070206   Preaward Review of Multiple Award
                     Schedule Contract Extension: Tallahassee
                     Technologies, Inc., Contract Number GS-
                     35F-0113N

11/19/07   A070137   Preaward Review of Multiple Award
                     Schedule Contract Extension: Robbins-
                     Gioia, LLC., Contract Number GS-23F-
                     7102H

11/20/07   A070161   Preaward Review of Multiple Award
                     Schedule Contract Extension: ARINC
                     Engineering Services, LLC, Contract
                     Number GS-35F-4825G

11/29/07   A070157   Preaward Review of Multiple Award
                     Schedule Contract Extension: Computer
                     Sciences Corporation, Contract Number
                     GS-23F-8029H

12/11/07   A070170   Preaward Review of Multiple Award
                     Schedule Contract Extension: Altec
                     Industries, Inc., Contract Number GS-30F-
                     1028G

12/12/07   A070132   Preaward Review of Multiple Award
                     Schedule Contract Extension: Camelbak
                     Products, LLC, Contract Number GS-07F-
                     9727H

12/13/07   A080046   Preaward Review of Multiple Award
                     Schedule Contract Extension: Advanced
                     Testing Technologies, Inc., Contract
                     Number GS-24F-3010G

12/18/07   A070176   Preaward Review of Multiple Award
                     Schedule Contract Extension: T-Mobile
                     USA, Incorporated, Contract Number GS-
                     35F-0503M

12/19/07   A070133   Preaward Review of Multiple Award
                     Schedule Contract Extension: World Wide
                     Technology, Inc., Contract Number GS-
                     35F-4194D




                                                                 October 1, 2007 – March 31, 2008 53
                               Appendix II–Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                               Funds to        Questioned
Date of        Audit                                                          Be Put to       (Unsupported)
Report         Number                    Title                                Better Use           Costs


12/20/07        A070103         Preaward Review of Multiple Award
                                Schedule Contract Extension: Intelligent
                                Decisions, Inc., Contract Number GS-35F-
                                4153D

12/20/07        A070203         Preaward Review of Multiple Award
                                Schedule Contract Extension: Technical
                                Communities,   Incorporated,  Contract
                                Number GS-24F-0066M

01/08/08        A080096         Report on Audit of Fiscal Year 2005
                                Incurred   Costs:    Mitretek  Systems,
                                Incorporated (now known as Noblis Inc.)

01/23/08        A070179         Preaward Review of Multiple Award
                                Schedule Contract: Herman Miller, Inc.,
                                Contract Number GS-28F-8049H

01/31/08        A080037         Preaward Review of Multiple Award
                                Schedule Contract Extension: Alpha
                                Protective Services, Incorporated, Contract
                                Number GS-07F-0447N

02/12/08        A070119         Preaward Review of Multiple Award
                                Schedule Contract Extension: BAE
                                Systems Information Technology, Inc.,
                                Contract Number GS-35F-4668G

02/21/08        A080002         Preaward Review of Multiple Award
                                Schedule      Contract     Extension: SI
                                International, Inc., Contract Number GS-
                                25F-0026N

02/21/08        A080028         Limited Scope Preaward Review of Multiple
                                Award Schedule Contract Extension: U.S.
                                Tactical Supply, Inc., Contract Number GS-
                                07F-0259N

03/03/08        A070124         Preaward Review of Multiple Award
                                Schedule Contract Extension: Alion
                                Science and Technology Corporation,
                                Contract Number GS-35F-4721G




54 Semiannual Report to the Congress
                        Appendix II–Audit Report Register
                                                                               Financial
                                                                          Recommendations
                                                                     Funds to        Questioned
Date of    Audit                                                    Be Put to       (Unsupported)
Report     Number                Title                              Better Use           Costs


03/26/08   A060186      Limited Scope Postaward Review of                               $252,377
                        Multiple Award Schedule Contract Number
                        GS-03F-5087C for the Period April 1, 1995
                        to March 31, 2004: L-3 Communications
                        Corporation

03/31/08   A070223      Preaward Review of Multiple Award
                        Schedule Contract Extension: Cotton &
                        Company, LLP, Contract Number GS-23F-
                        9807H

03/31/08   A070227      Preaward Review of Multiple Schedule
                        Contract Extension: Telecommunication
                        Systems, Inc., Contract Number GS-35F-
                        4655H

03/31/08   A080059      Preaward Review of Multiple Award
                        Schedule Contract Extension: Belleville
                        Shoe Manufacturing Company, Contract
                        Number GS-07F-9990H

03/31/08   A080080      Postaward Audit Report on Examination                         $3,696,911
                        of Direct Costs: Science Applica-
                        tions International Corporation, Task
                        Order Number T0001AJM028 Under
                        GSA     Millennia   Contract   Number
                        GS00T99ALD0210

Other Internal Audits
10/03/07   A070094      Pegasys Security Controls, Interim Audit
                        Report

10/22/07   A070214      Report on Internal       Controls   Over
                        Performance Measures

11/09/07   A070205      Limited Audit of the Fiscal Year 2007
                        Federal Managers’ Financial Integrity Act
                        Section 2 and Section 4 Assurance
                        Statements

12/20/07   A070105      Review of GSA’s        Suspension    and
                        Debarment Program




                                                                    October 1, 2007 – March 31, 2008 55
                               Appendix II–Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                Funds to        Questioned
Date of        Audit                                                           Be Put to       (Unsupported)
Report         Number                     Title                                Better Use           Costs


01/28/08        A070109         Audit   of     the   General   Services
                                Administration’s Fiscal Years 2007 and
                                2006 Financial Statements

01/28/08        A070109         PriceWaterhouseCoopers LLP Fiscal 2007
                                EDP Management Recommendation Letter

03/31/08        A060228         Improvements to the GSA Privacy Act
                                Program Are Needed to Ensure that
                                Personally Identifiable Information (PII) Is
                                Adequately Protected

10/03/07        A070136         General Services Administration, Office of
                                Inspector General’s Report on Applying
                                Agreed-Upon Procedures

10/11/07        A070109         Report   on     Applying   Agreed-Upon
                                Procedures Re: FY 2007 Fund Balance with
                                Treasury

11/02/07        A070109         Report      on Applying Agreed-Upon
                                Procedures Re: FY 2007 Environmental
                                Liabilities

11/08/07        A070109         Report on Applying Agreed - Upon
                                Procedures    Re: FY   2007 Loss
                                Contingencies

Non-GSA Internal Audits
10/10/07        A060192         Review of the Administrative Procedures of
                                the United States Arctic Research
                                Commission




56 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending

Public Law 104-106 requires the head of a Federal             In GSA, the Office of the Chief Financial Officer (OCFO)
agency to complete final action on each management            is responsible for monitoring and tracking open
decision required with regard to a recommendation in an       recommendations. While we continue to assist the
Inspector General's report within 12 months after the         Agency in resolving these open items, various litigative
date of the report. If the head of the agency fails to com-   proceedings, continuing negotiations of contract
plete final action within the 12-month period, the            proposals, and corrective actions needed to undertake
Inspector General shall identify the matter in the            complex and phased-in implementing actions often delay
semiannual report until final action is complete.             timely completion of the final action.

The OCFO provided the following list of reports with action items open beyond 12 months:


Date of         Audit
Report          Number                                             Title


Contract Audits
08/05/97        A73617           Refund From The Committee For Purchase From People Who Are Blind Or Severely
                                 Disabled, Agreement Number GS-02F-61511

11/09/95        A21266           Postaward Audit of Multiple Award Schedule Contract: Rose Talbert Paint Company,
                                 Contract Number GS-10F-48584

06/17/98        A82441           Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc.,
                                 Contract Number GS-09P-95-KTC-0010

03/24/99        A995128          Preaward Audit of Cost or Pricing Data: Sachs Electric Company, Subcontractor to
                                 Morse Diesel International, Inc., Contract Number GS-06P-95-GZC-0501

06/24/99        A995231          Audit of Small Business Subcontracting Plan: Rael Automatic Sprinkler Company,
                                 GS-02P-95-DTC-0041(N)

06/01/00        A000971          Audit of Claims for Increased Costs: Midwest Curtainwalls, Inc., The Federal Triangle
                                 Project

04/30/01        A010127          Audit of Billings under Contract Number GS-06P-99-GZC-0315: DKW Construction,
                                 Inc.

10/18/01        A63630           Postaward Audit of Multiple Award Schedule Contract: The Presidio Corporation,
                                 Contract Number GS00K-95-AGS-6170, Contract Period April 1, 1995 through
                                 March 31, 1996

10/31/01        A010265          Preaward Audit of Architect and Engineering Services Contract: HNTB District of
                                 Columbia Architecture, P.C., Solicitation Number GS-11P-00-MQC-0041

01/11/02        A010281          Preaward Audit of a Claim for Increased Costs: Lawson Mechanical Contractors,
                                 Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                 Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/02        A020124          Preaward Audit of a Claim for Increased Costs: Res-Com Insulation, Inc.,
                                 Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                 Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032


                                                                                       October 1, 2007 – March 31, 2008 57
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                          Title


06/12/02        A020097         Preaward Audit of a Claim for Increased Costs: Artisans G & H Fixtures, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

07/16/02        A020191         Preaward Audit of Supplemental Architect and Engineering Contract: McMullan &
                                Associates, Inc., Solicitation Number GS-11P-01-YTD-0319

07/30/02        A020086         Preaward Audit of a Claim for Increased Costs: Raymond Interior Systems North,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

09/04/02        A020180         Preaward Audit of Architect and Engineering Services Contract: Adtek Engineering,
                                Inc., Solicitation Number GS-11P-01-YTD-0319

09/24/02        A020196         Preaward Audit of Architect and Engineering Services Contract: BEI Structural
                                Engineers, Inc., Solicitation Number GS-11P-01-YTD-0319

10/02/02        A020178         Preaward Audit of Multiple Award Schedule Contract Modification: Motorola, Inc.,
                                GSA Contract Number GS-35F-0004L

11/20/02        A010279         Preaward Audit of a Claim for Increased Costs: Morse Diesel International, Inc., New
                                U.S. Courthouse & Federal Building, Sacramento, California, Contract Number GS-
                                09P-95-KTC-0032

01/30/03        A020248         Audit of Claim for Increased Costs: Doan/Lake Erie LLC, Contract Number GS-05P-
                                99-GBC-0012

03/21/03        A020133         Preaward Audit of a Claim for Increased Costs: Cosco Fire Protection, Inc.,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

03/25/03        A030140         Limited Scope Review of Termination Claim: Science Applications International
                                Corporation, Contract Number GS-35F-4461G, Task Order Number T0002SJ0159

05/02/03        A030106         Preaward Audit of a Claim for Increased Costs: George Foss Company,
                                Subcontractor to Morse Diesel International, Inc., New U.S. Courthouse & Federal
                                Building, Sacramento, California, Contract Number GS-09P-95-KTC-0032

05/29/03        A020230         Preaward Audit of a Claim for Increased Costs: C. E. Toland & Son, Subcontractor
                                to Morse Diesel International, Inc., New U.S. Courthouse & Federal Building,
                                Sacramento, California, Contract Number GS-09P-95-KTC-0032

01/12/04        A040098         Preaward Audit of Supplemental Architect and Engineering Services Contract:
                                Gonzalez Hasbrouck, Inc., Solicitation Number GS-05P-03-GBD-0072




58 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                  Title


02/03/04   A040119   Attestation Review of Supplemental Architect and Engineering Services Contract:
                     Julie Snow Architects, Inc., Solicitation Number GS-05P-03-GBD-0072

03/09/04   A040162   Price Adjustments on Multiple Award Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G, for the Interim Period April 1, 2004 Through
                     September 30, 2006

03/09/04   A030186   Postaward Audit of Multiple Award Schedule Contract: Nova Solutions, Inc.,
                     Contract Number GS-29F-0173G.

06/09/04   A040095   Preaward Audit of a Termination Settlement Proposal: M.L. Benjamin Enterprises,
                     Inc., Contract Number GS-02P-00P-VC-0024

06/15/04   A040095   Audit of Final Contract Payment: M.L. Benjamin Enterprises, Inc., Contract Number
                     GS-02P-00P-VC-0024

06/28/04   A040085   Limited Scope Postaward Audit of Multiple Award Schedule Contract: Onboard
                     Software, Inc., Contract Number GS-35F-0117J

10/29/04   A040211   Preaward Review of Multiple Award Schedule Contract Extension: Allsteel Inc.,
                     Contract Number GS-28F-0010J

05/10/05   A050112   Preaward Review of Multiple Award Schedule Contract Extension: Entrust, Inc.,
                     Contract Number GS-35F-0332K

07/08/05   A050007   Preaward Review of Multiple Award Schedule Contract Extension: Network
                     Equipment Technologies Federal, Inc., Contract Number GS-35F-0205K

07/08/05   A050138   Review of Claim: Nason and Cullen, Inc., Contract Number GS-03B-02301

08/15/05   A050157   Review of Termination Settlement Proposal: CompuCom Federal Systems, Inc.,
                     Contract Number GS-00K-97-AFD-2226

10/12/05   A050105   Preaward Review of Multiple Award Schedule Contract Extension: BCOP Federal,
                     Contract Number GS-14F-0035K

11/30/05   A050147   Limited Scope Review of Task Order F11623-02-F-A425 Multiple Award Schedule
                     Contract: Herman Miller, Inc., Contract GS-28F-8049H

12/30/05   A050176   Preaward Review of Multiple Award Schedule Contract Extension: E.F. Johnson
                     Company, Contract Number GS-35F-0675K

01/05/06   A050247   Preaward Review of Price Adjustment Claim: Lockheed Martin Information
                     Technology, Task Order Number 103BK0034, Contract Number GS-35F-4039G




                                                                     October 1, 2007 – March 31, 2008 59
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit
Report         Number                                        Title


03/30/06        A050248         Postaward Review of Lease Costs and Pricing Data: Information Systems Support,
                                Incorporated, Contract Number GS-09K-BHD-0006

04/18/06        A050122         Review of Industrial Funding Fee Remittances: Fastenal Company, Contract
                                Number GS-06F-0039K

04/25/06        A050265         Preaward Review of Multiple Award Schedule Contract Extension: Lawson
                                Products, Inc., Contract Number GS-06F-0027L

05/09/06        A050180         Preaward Review of Multiple Award Schedule Contract Extension: Office Depot,
                                Incorporated, Contract Number GS-14F-0040K

07/25/06        A060146         Preaward Review of Multiple Award Schedule Contract Extension: Xiotech
                                Corporation, Contract Number GS-35F-0244L

08/15/06        A060127         Preaward Review of Multiple Award Schedule Contract Extension May 7, 2006
                                Through May 6, 2011: W.B. Brawley Company, Contract Number GS-27F-0018L

09/07/06        A060181         Preaward Review of Multiple Award Schedule Contract Extension: Haverstick
                                Government Solutions, Inc., Contract Number GS-35F-0496L

09/13/06        A060231         Preaward Review of Architect and Engineering Services Contract: Teng &
                                Associates, Inc., Contract Number GS-01P-06-BZC-0004

10/04/06        A070001         Preaward Review of Architect and Engineering Services Contract: Kieran
                                Timberlake Associates, Contract Number GS-01P-05-BZC-0004

10/27/06        A060189         Preaward Review of Multiple Award Schedule Contract Extension: Akal Security,
                                Incorporated, Contract Number GS-07F-0061M

10/24/06        A060148         Preaward Review of Multiple Award Schedule Contract Extension: Kimball
                                International, Incorporated, Contract Number GS-29F-0177G

10/31/06        A060206         Postaward Review of Lease Costs and Pricing Data: Information Systems Support,
                                Incorporated, Contract Number GS-09K-99-BHD-0006

11/30/06        A060230         Preaward Review of Multiple Award Schedule Contract Extension: General Security
                                Services Corporation, Contract Number GS-07F-0305M

12/08/06        A060115         Preaward Review of Multiple Award Schedule Contract Extension: WFI Government
                                Services, Inc., Contract Number GS-35F-0553L

12/21/06        A060202         Preaward Review of Multiple Award Schedule Contract Extension: Raba
                                Technologies, LLC, Contract Number GS-35F-0063M




60 Semiannual Report to the Congress
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of    Audit
Report     Number                                 Title


12/27/06   A060156   Preaward Review of Multiple Award Schedule Contract Extension: Dynamic Access
                     Systems, LLC, Contract Number GS-23F-0280L

02/20/07   A060212   Preaward Review of Multiple Award Schedule Contract Extension: Information
                     Management Consultants, Inc., Contract Number GS-35F-4406G

03/05/07   A060238   Preaward Review of Multiple Award Schedule Contract Extension: JB Management,
                     Inc., Contract Number GS-35F-0106M

03/22/07   A070093   Preaward Review of Multiple Award Schedule Contract Extension: Cexec, Inc.,
                     Contract Number GS-35F-4453G

03/26/07   A060216   Preaward Review of Multiple Award Schedule Contract Extension: JHM Research
                     & Development, Inc., Contract Number GS-25F-0020M




                                                                   October 1, 2007 – March 31, 2008 61
Appendix III–Audit Reports over 12 Months Old, Final Agency Action Pending


Date of        Audit                                                                             Projected Final
Report         Number                                        Title                                Action Date


Internal Audits
03/18/03        A020161         Audit of the Consolidation of Distribution Center Operations:      07/15/2008
                                Impact on Shipment Costs & Delivery Times

08/05/04        A020245         Review of FedBizOpps                                               05/15/2008

09/29/05        A040246         Review of the GSA Advantage! System                                06/15/2008

03/30/06        A040127         Review of the Federal Procurement Data System - Next               08/15/2008
                                Generation (FPDS-NG)

04/19/06        A050130         Review of Overtime Management Controls in GSA Public               07/15/2008
                                Buildings Service, National Capital Region

11/14/06        A050197         Review of GSA’s Telework Program                                   05/15/2008

12/28/06        A050263         Audit of PBS’s Use of Occupancy Agreements As a Billing Source     11/15/2008

01/31/07        A060134         PricewaterhouseCoopers LLP Fiscal         Year   2006    EDP       06/15/2008
                                Management Recommendation Letter

02/26/07        A060055         Audit of GSA’s Response to Hurricane Katrina                       05/15/2008

03/06/07        A060149         Review of eOffer/eMod, GSA’s Electronic Contract Proposal and      07/15/2008
                                Modification System




62 Semiannual Report to the Congress
                                   Appendix IV–Delinquent Debts



The GSA Office of the Chief Financial Officer provided the following information.
During the period October 1, 2007 through March 31,           delinquent receivables in order to exchange necessary
2008, the following activities were undertaken by GSA in      information to further the collection process.
an effort to improve debt collection and reduce the           Receivables and claims continue to be reduced by
amount of debt written off as uncollectible.                  prompt monthly follow-up on delinquencies. In addition,
                                                              delinquent debts and aged receivable reports are sent
• From October 1, 2007 to March 31, 2008, the Office          to field office personnel and regional management
  of Financial Policy and Operations referred                 on a monthly basis. Aged receivable reports over
  $2,424,552 in delinquent non-Federal claims to the          120 days are elevated to regional financial officers,
  U.S. Department of the Treasury for cross-servicing         regional business managers and the Assistant
  collection activities. Collections on non-Federal           Regional Administrators for further action.
  claims exceeded $49,183,301. Administrative offsets
  have resulted in additional collections of $3,970,977. • The Profit Recovery Group, through a contract
  GSA also collected non-Federal claims through Pre-           arrangement with GSA, continues to actively review
  Authorized Debits (PADS) totaling $53,941,000.               and pursue overpayments with our Accounts Payable
                                                               Division. Delinquent receivables for the non-
• To comply with the Debt Collection Improvement Act of        governmental entities are forwarded to Treasury
  1996 GSA transmits delinquent accounts receivable            for offset/collection. This action has improved GSA’s
  and claims over 180 days old monthly to the                  collections from the District of Columbia government
  Department of the Treasury, Debt Management                  and the tribal organizations.
  Service for collection. GSA has continued to implement
  and initiate actions to improve debt collection efforts to • A GSA performance measurement goal is to reduce
  reduce the amount of debts written-off as uncollectible.     delinquent accounts receivables over 1 year old. Action
                                                               plans to reach this goal have been developed, and
• Coordination between Treasury cross-servicing                progress is being monitored on a monthly, quarterly,
  personnel, regional contracting officers, realty             and yearly basis. This goal and the development of
  specialists and GSA associates continues to                  related plans have had a positive impact on GSA’s
  strengthen our receivable and claim collection efforts.      efforts to improve our debt collection practices.
  These efforts included regular teleconferences on


Non-Federal Accounts Receivable

                                                As of                          As of
                                          September 30, 2007               March 31, 2008             Difference

     Total Amounts Due GSA                    $145,177,906                  $146,313,113              $1,135,207

     Amounts Delinquent                        $11,089,689                    $9,322,262             ($1,767,427)

     Total Amount Written Off                                  $1,380,738
     as Uncollectable Between
     10/1/07 and 3/31/08




                                                                                     October 1, 2007 – March 31, 2008 63
                                      Appendix V–Reporting Requirements



The table below cross-references the reporting require-                           Congress in Senate Report No. 96-829 relative to the
ments prescribed by the Inspector General Act of 1978,                            1980 Supplemental Appropriations and Rescission Bill
as amended, to the specific pages where they are                                  and the National Defense Authorization Act is also
addressed. The information requested by the                                       cross-referenced to the appropriate page of the report.




  Requirement                                                                                                                                     Page

  Inspector General Act

     Section 4(a)(2) – Review of Legislation and Regulations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 34

     Section 5(a)(1) – Significant Problems, Abuses, and Deficiencies. . . . . . . . . . . . . . . . . . . . . . . . . . 2–23

     Section 5(a)(2) – Recommendations with Respect to Significant
      Problems, Abuses, and Deficiencies . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2–23

     Section 5(a)(3) – Prior Recommendations Not Yet Implemented. . . . . . . . . . . . . . . . . . . . . . . . . . . . . 46

     Section 5(a)(4) – Matters Referred to Prosecutive Authorities. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 40

     Sections 5(a)(5) and 6(b)(2) – Summary of Instances Where
      Information Was Refused . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . None

     Section 5(a)(6) – List of Audit Reports.. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

     Section 5(a)(7) – Summary of Each Particularly Significant Report . . . . . . . . . . . . . . . . . . . . . . . . . 2–23

     Section 5(a)(8) – Statistical Tables on Management Decisions on
      Questioned Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

     Section 5(a)(9) – Statistical Tables on Management Decisions on
      Recommendations That Funds Be Put to Better Use . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 38

     Section 5(a)(11) – Description and Explanation for Any Significant
      Revised Management Decision . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . None

     Section 5(a)(12) – Information on Any Significant Management
      Decisions with Which the Inspector General Disagrees . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . None

  Senate Report No. 96-829

     Resolution of Audits . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 39

     Delinquent Debts . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63

  National Defense Authorization Act, Public Law 104-106, 5 U.S.C. App. 3, § 5 note . . . . . . . . . . . . 57




64 Semiannual Report to the Congress
                            Appendix VI–OIG Offices and Key Officials



Office of the Inspector General
Inspector General, Brian D. Miller (J) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
Deputy Inspector General, Robert C. Erickson (Acting) (JD) . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0450
Executive Assistant for Management, Terrence S. Donahue. . . . . . . . . . . . . . . . . . . . . . . . (202) 219-0363
Special Assistant for Communications, Dave Farley . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 219-1062


Office of Counsel to the Inspector General
Counsel to the IG, Vacant (JC) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1932
Deputy Counsel to the IG, Chris Langello (Acting) (JCD) . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1932


Office of Internal Evaluation and Analysis
Director, Peter J. Coniglio (JE). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-2460


Office of Audits
Assistant IG for Auditing, Andrew Patchan, Jr. (JA) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0374
Principal Deputy Assistant IG for Auditing, Regina O’Brien (JAD) . . . . . . . . . . . . . . . . . . . . (202) 501-0374


Deputy Assistant Inspectors General for Auditing
Information Technology Audit Office, Gwendolyn A. McGowan (JA-T) . . . . . . . . . . . . . . . . (703) 308-1223
Real Property Audit Office, Rolando N. Goco (JA-R) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 219-0088
Finance & Administrative Audit Office, Jeffrey C. Womack (JA-F). . . . . . . . . . . . . . . . . . . . (202) 501-0006
Acquisition Programs Audit Office, Kenneth L. Crompton (JA-A). . . . . . . . . . . . . . . . . . . . . (703) 603-0189
Contract Audit Office, James M. Corcoran (JA-C) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4846


Regional Inspectors General for Auditing
National Capital Region Field Office, Paul J. Malatino (JA-W). . . . . . . . . . . . . . . . . . . . . . . (202) 708-5340
Northeast and Caribbean Field Office, Howard R. Schenker (JA-2) . . . . . . . . . . . . . . . . . . (212) 264-8620
Mid-Atlantic Field Office, Glenn D. Merski (JA-3) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (215) 446-4840
Southeast Sunbelt Field Office, James D. Duerre (JA-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5125
Great Lakes Field Office, David K. Stone (JA-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7781
The Heartland Field Office, Thomas R. Barnard (Acting) (JA-6) . . . . . . . . . . . . . . . . . . . . . (816) 926-7052
Greater Southwest Field Office, Rodney J. Hansen (JA-7) . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2572
Pacific Rim Field Office, James P. Hayes (JA-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2744




                                                                                                       October 1, 2007 – March 31, 2008 65
                            Appendix VI–OIG Offices and Key Officials



  Office of Investigations
  Assistant IG for Investigations, Charles J. Augone (JI) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-1397
  Deputy Assistant IG for Investigations, Gregory G. Rowe (JID). . . . . . . . . . . . . . . . . . . . . . (202) 501-1397


  Special Agents in Charge (SAC)
  Mid-Atlantic Regional Office, SAC Randal A. Stewart (JI-W) . . . . . . . . . . . . . . . . . . . . . . . . (202) 252-0008
    Philadelphia Resident Office, Assistant SAC James E. Adams (JI-3) . . . . . . . . . . . . . . . (215) 861-3550
  Northeast and Caribbean Regional Office, SAC Daniel J. Walsh (JI-2) . . . . . . . . . . . . . . . (212) 264-7300
    Boston Resident Office, Assistant SAC Luis A. Hernandez (JI-1) . . . . . . . . . . . . . . . . . . . (617) 565-6820
  Southeast Regional Office, SAC Lee P. Quintyne (JI-4) . . . . . . . . . . . . . . . . . . . . . . . . . . . (404) 331-5126
    Miami Resident Office, SA Deitrich Bohmer (JI-4M)
  Central Regional Office, SAC Harvey G. Florian (JI-5) . . . . . . . . . . . . . . . . . . . . . . . . . . . . (312) 353-7779
  Mid-West Regional Office, SAC John F. Kolze (JI-6) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (816) 926-7214
    Denver Resident Office, SA Christopher Hamblen (JI-8) . . . . . . . . . . . . . . . . . . . . . . . . . (303) 236-5072
  Southwest Regional Office, SAC Paul W. Walton (JI-7). . . . . . . . . . . . . . . . . . . . . . . . . . . . (817) 978-2589
  Western Regional Office, SAC Liza Ivins (JI-9) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (415) 522-2755
    Los Angeles Resident Office, SA Tony Wu (JI-9L) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (949) 360-2214
  Northwest Regional Office, SAC Terry J. Pfeifer (JI-10) . . . . . . . . . . . . . . . . . . . . . . . . . . . (253) 931-7654


  Office of Administration
  Assistant IG for Administration, Carolyn Presley-Doss (Acting) (JP) . . . . . . . . . . . . . . . . . . (202) 501-4638
  Budget, Planning, and Financial Management Division, Director Kristin Sneed (JPB) . . . . (202) 208-4198
  Facilities and Contracts Division, Director Marta M. Viera (JPFC) . . . . . . . . . . . . . . . . . . . . (202) 501-2887
  Human Resources Division, Director (Vacant) (JPH). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-0360

  Information Technology Division, Director (Vacant) (JPM) . . . . . . . . . . . . . . . . . . . . . . . . . (202) 501-3134




66 Semiannual Report to the Congress
Notes




        October 1, 2007 – March 31, 2008 67
                                       Notes




68 Semiannual Report to the Congress
Notes




        October 1, 2007 – March 31, 2008 69
                                       Notes




70 Semiannual Report to the Congress
Make
like
it’s
your
money!
It is.
To report suspected waste, fraud, abuse, or
mismanagement in GSA, call your


Inspector General’s Hotline
Toll-free 1-800-424-5210
Washington, DC metropolitan area
(202) 501-1780

or write: GSA, IG, Hotline Officer
          Washington, DC 20405

or access the Web: www.gsa.gov/fraudnet

Office of Inspector General
U.S. General Services Administration
Office of Inspector General
U.S. General Services Administration
1800 F Street, NW
Washington, DC 20405
http://www.gsa.gov/inspectorgeneral
